<html>
<title> - DEMOCRACY AND HUMAN RIGHTS: THE CASE FOR U.S. LEADERSHIP</title>
<body><pre>[Senate Hearing 115-831]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-831

          DEMOCRACY AND HUMAN RIGHTS: THE CASE FOR U.S. LEADERSHIP

=======================================================================

                                HEARING


                               BEFORE THE

                        SUBCOMMITTEE ON WESTERN
                       HEMISPHERE, TRANSNATIONAL
                       CRIME, CIVILIAN SECURITY,
                        DEMOCRACY, HUMAN RIGHTS,
                       AND GLOBAL WOMEN'S ISSUES


                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             FEBRUARY 16, 2017
                               __________


       Printed for the use of the Committee on Foreign Relations





              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                   Available via the World Wide Web:
                         http://www.govinfo.gov


                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
40-671 PDF                 WASHINGTON : 2020 



















                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



              SUBCOMMITTEE ON WESTERN HEMISPHERE,        
       TRANSNATIONAL CRIME, CIVILIAN SECURITY, DEMOCRACY,        
            HUMAN RIGHTS, AND GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  TOM UDALL, New Mexico
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
JOHNNY ISAKSON, Georgia              TIM KAINE, Virginia





                              (ii)        

  





















                            C O N T E N T S

                              ----------                              
                                                                   Page

Rubio, Hon. Marco, U.S. Senator from Florida.....................     1

Cardin, Hon. Benjamin L., U.S. Senator from Maryland.............     4

Gershman, Carl, President, National Endowment for Democracy, 
  Washington, DC.................................................     6
    Prepared statement...........................................     8

Green, Hon. Mark, President, International Republican Institute, 
  Washington, DC.................................................    10
    Prepared statement...........................................    12

Wollack, Kenneth, President, National Democratic Institute, 
  Washington, DC.................................................    15
    Prepared statement...........................................    17

Machado, Danilo ``El Sexto'' Maldonado, Cuban Artist and Human 
  Rights Activist................................................    31
    Prepared statement...........................................    33

Eldosari, Dr. Halah, Visiting Scholar and Human Rights Activist, 
  Washington, DC.................................................    35
    Prepared statement...........................................    37

Kasparov, Garry, Chairman, Human Rights Foundation, New York, NY.    39
    Prepared statement...........................................    41

              Additional Material Submitted for the Record

Responses of Carl Gershman to Questions Submitted by Senator Tim 
  Kaine..........................................................    52

Response of Hon. Mark Green to Question Submitted by Senator Tim 
  Kaine..........................................................    54

Response of Kenneth Wollack to Question Submitted by Senator Tim 
  Kaine..........................................................    54


                             (iii)        

 
                      DEMOCRACY AND HUMAN RIGHTS: 
                      THE CASE FOR U.S. LEADERSHIP

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2017

                               U.S. Senate,
 Subcommittee on Western Hemisphere, Transnational 
Crime, Civilian Security, Democracy, Human Rights, 
                         and Global Women's Issues,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:48 p.m. in 
room 419, Dirksen Senate Office Building, Hon. Marco Rubio, 
chairman of the subcommittee, presiding.
    Present: Senators Rubio [presiding], Gardner, Menendez, and 
Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. This hearing of the Subcommittee on the 
Western Hemisphere, Transnational Crime, Civilian Security, 
Democracy, Human Rights, and Global Women's Issues will come to 
order.
    The title of this hearing is ``Democracy and Human Rights: 
The Case for U.S. Leadership.'' We are going to have two panels 
testifying today. The first will feature Mr. Carl Gershman, 
president of the National Endowment for Democracy; the 
Honorable Mark Green, the president of the International 
Republican Institute; and Mr. Kenneth Wollack, who is the 
president of the National Democratic Institute, all have long 
and distinguished careers in this field, and we are fortunate 
to have them here today.
    The second panel will include Mr. Garry Kasparov, who is 
the chairman of the Human Rights Foundation; Dr. Halah 
Eldosari, a visiting scholar and human rights activist; and Mr. 
Danilo ``El Sexto'' Maldonado Machado, who is a Cuban artist 
and human rights activist. Each of these individuals have 
suffered some form of oppression, harassment, or 
marginalization by their governments, and I am confident the 
stories they will share today will shine a powerful light on 
those who attempt to violate the human rights and the freedom 
that every person is entitled to.
    We look forward to hearing your testimony. We thank 
everyone in attendance for being here. I specifically want to 
acknowledge the leadership of NED's core institutes 
representing labor and business, Shawna Bader-Blau and Andrew 
Wilson.
    Today, we will discuss a topic which I believe is 
especially timely not simply because we are at the start of a 
new administration, which continues to formulate its foreign 
policy, but also because a cursory glance around the globe 
reveals disturbing trends of an authoritarian resurgence 
threatening human rights and democracy. From Russia to China, 
from North Korea to Venezuela, authoritarianism is on the rise. 
Human freedom is under assault, and restrictive new NGO laws 
are being used to crush civil society. Press freedom is being 
challenged. Just yesterday, we saw the expulsion of CNN en 
Espanol from Venezuela, and political dissidents often feel 
isolated and abandoned while those who repress them do so with 
seeming impunity.
    Many of our historic alliances with other leading 
democracies are fraying while authoritarian regimes are closely 
collaborating and empowering other dictators. Some of the 
world's most egregious human rights violators retain well-paid 
lobbyists and P.R. firms. They engage in sophisticated 
expressions of soft power in the media through so-called think 
tanks and academia and even the entertainment industry. It 
feels like freedom fighters are constantly playing catch-up.
    Earlier this month, Vladimir Kara-Murza of Open Russia was 
suspected of being poisoned for a second time. I understand 
that he is now recovering and will hopefully be released from 
the hospital shortly. He has been a target of the Russian 
Government for some time.
    Later this month, February 27th will be the second 
anniversary of the assassination of his close ally, Boris 
Nemtsov, who was murdered in view of the Kremlin after speaking 
out against Russia's aggression in Ukraine and Vladimir Putin's 
corruption. We invited his daughter Zhanna Nemtsova to testify 
today, but she was unable to attend due to prior commitments. I 
would, however, like to enter into the record a report from her 
organization detailing the figures of political prisoners in 
Russia.

    [The information referred to above was not available at 
time of print.]

    Senator Rubio. In the seminal work, The Case for Democracy, 
famed Soviet dissident Natan Sharansky, divides nations into 
free and fear societies. He writes, quote, ``A simple way to 
determine whether the right to dissent in a particular society 
is being upheld is to apply the town-square test. Can a person 
walk into the middle of the town square and express his or her 
views without fear of arrest, imprisonment, or physical harm? 
If he can, then that person is living in a free society, and if 
not, it is a fear society,'' end quote.
    For the Chinese lawyer, the Russian journalist, the Saudi 
blogger, the Venezuelan activist, the Cuban artist, the 
Bahraini civil society leader, there is no question they are 
living in fear societies. Their attempts to freely--and I would 
add courageously--express themselves are met with harsh and 
unyielding repression.
    Civil rights champion, the Reverend Martin Luther King, 
Jr., famously said, ``Injustice anywhere is a threat to justice 
everywhere.'' As the title of today's hearing makes clear, I 
believe and I think it is safe to say that Ranking Member 
Menendez agrees as well that there is indeed a convincing case 
to be made for strong, principled U.S. leadership in the 
promotion and support of democracy and human rights globally on 
this moral imperative alone.
    I recognize this is not a universal belief. It never has 
been, even during the heyday of the Soviet Union, and 
certainly, it is not now when there is no monolith enemy or 
single ideological counterpart to the free world.
    While the American people remain among the most generous in 
the world, widely giving to charitable causes both domestically 
and internationally, altruism or even the moral impetus to 
stand with the oppressed and marginalized is insufficient 
motivation for many, especially when they consider our own 
decrepit infrastructure, our shuttered factories, our mounting 
national debt, and other priorities here at home.
    So for those of who believe in the merits of this work, the 
burden is on us to make the case for why U.S. foreign policy 
must be infused with the values at the center of our own 
experiment in self-governance. It is incumbent upon us to 
explore and explain why the support of emerging democracies 
should be a core U.S. national interest precisely because it is 
a national security imperative, and I hope today's hearing will 
provide a platform to do so.
    We need not abandon any notion of realpolitik. I recently 
read a National Review piece that captured a conversation that 
Mr. Kasparov had with Czech writer and dissident Vaclav Havel 
in which Havel noted, ``Now and then, you have to negotiate 
with evil regimes but you do not have to do so without bringing 
up human rights.'' Take Ronald Reagan. He negotiated with the 
Soviet Union about arms control and geopolitics, but he always 
put political prisoners on the table.
    With the previous administration, these issues took a back 
seat to other geopolitical goals, whether it was greater 
collaboration with China on climate change and the global 
economic crisis, the resumption of diplomatic relations with 
the tyranny in Cuba, or the prospects of a grand bargain with 
Iran. Dissidents in these and other countries often felt 
ignored and forgotten by the United States.
    My critique is not reserved for a Democratic 
administration. I raised these issues with our Secretary of 
State--our new Secretary of State during his confirmation 
hearing and I am--was concerned and remain so about the way he 
addressed them. I intend to continue to highlight the 
importance of democracy and human rights as senior State 
Department nominees come before our committee for 
consideration. And as I stated when I voted for Mr. Tillerson, 
my support of or opposition to those nominees will be based in 
part on their willingness to make these issues a priority.
    I believe it is vital for the Secretary, for his deputies, 
for senior White House officials, including the President and 
Vice President, to meet publicly with dissidents and human 
rights activists, as President Trump and Vice President Pence 
did last night with Lilian Tintori, the wife of Venezuelan 
opposition figure Leopoldo Lopez. It is essential that the 
leaders of the world's greatest democracy issue statements of 
support and solidarity and, where appropriate, condemnations 
when grave human rights abuses occur.
    I urge the administration to request robust democracy 
funding for such work in the upcoming budget cycle and to 
utilize recently passed legislation from the previous Congress, 
which provides the State Department new tools to advance the 
cause of human rights and human dignity, foremost among them, 
the global Magnitsky Act, which the ranking member was so 
involved in.
    Writing eloquently and ominously in the Wall Street Journal 
last year, one of our witnesses Mr. Kasparov noted 
``Globalization has made it easy for the enemies of the free 
world to spread their influence in ways the Soviet leadership 
could not have imagined while the West has lost the will to 
defend itself and its values.'' I pray this warning is not 
borne out of--borne out by reality.
    Consider the contrast with Natan Sharansky's account of 
being held in an 8 by 10 foot cell in a Siberian prison in 1983 
when his Soviet jailers allowed him to read the latest issue of 
the official Communist Party newspaper. Sharansky recalled the 
front-page article condemning Reagan's famous ``Evil Empire'' 
speech. And he wrote, ``Tapping on the walls and talking 
through toilets, political prisoners spread the word of 
Reagan's so-called provocation.'' The dissidents were ecstatic. 
Finally, the leader of the free world had spoken the truth, a 
truth that burns inside the heart of each and every one of us.
    I believe we are at an inflection point and that the stakes 
could not be higher, as we will no doubt hear today. We must 
commit anew to a robust defense of our values because they are 
not merely American values. Rather, they reflect the yearning 
of millions of people around the world who live in societies 
dominated by fear and oppression but who look to the United 
States of America to champion their cause to full exercise 
their God-given rights.
    I look forward to hearing from our witnesses. You have 
experience in the field and on the ground that will contribute 
greatly to what can so easily become abstract policy 
discussions. I turn now over to the ranking member, Senator 
Menendez.

                STATEMENT OF HON. BOB MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, Thank you, Mr. Chairman. And, Mr. 
Chairman, since this is the first hearing of the subcommittee, 
I want to say I look forward to working with you on the 
subcommittee's enormous breadth and scope of jurisdiction. From 
the Western Hemisphere to transnational crime to civilian 
security to democracy and human rights and global women's 
issues, we have a lot of ground to cover, and we are fortune to 
be able to do so. And I look forward to working with you, as I 
have on the full committee and in the Senate.
    I want to welcome our distinguished guests for both panels. 
We are honored to have you and very much forward to--looking 
forward to hearing your testimony. I would like to thank the 
chairman for making this our first subcommittee hearing of the 
new Congress. For so many reasons I cannot think of a more 
important topic: democracy, human rights, and the case for U.S. 
leadership for this subcommittee and truly for the Foreign 
Relations Committee as a whole to address.
    The United States itself was built on the dreams and deep 
beliefs of aspirational individuals, those of individual 
liberty, of inalienable rights, and of a system of governance 
that treats all individuals equally. This democratic vision led 
to the creation of a system of government that protects 
fundamental freedoms that we become at risk of taking for 
granted: the freedom of speech, of expression, the freedom of 
praying however we choose. And we are still perfecting the 
vision of treating all individuals regardless of gender, 
identity, race, religion, or creed equally under the law.
    In addition to these individual liberties, we enjoy the 
governance structures that ensure an independent judiciary and 
three equal branches of government that prevent one person from 
consolidating power.
    I note this foundation of the United States because it has 
and must continue to shape our world view and drive our foreign 
policy. Diplomacy is not naked deal-making. There is often no 
bottom line in carefully crafted, nuanced relationships with 
foreign countries. Our diplomatic efforts must be driven by 
these values.
    We support democracies around the world because history has 
taught us too well that democracies that also value the rule of 
law and individual rights are our best partners and our most 
reliable allies. For those countries with whom we partner out 
of strategic necessity and shared security goals, we must 
always be vocal and active in supporting democratic efforts and 
independent voices.
    It is this moral clarity, this leadership that sets the 
United States apart. Any suggestions of moral equivalency, that 
we are somehow on part with dictatorial regimes that kill 
political opponents, that jail journalists for speaking the 
truth, and indiscriminately bomb hospitals and slaughter 
innocent civilians should be resoundingly condemned.
    We are here today to give voice to those who have been 
silenced in their own countries and to better understand how 
and why America investment into democracy and governance 
programs furthers our own national security and foreign policy 
objectives.
    Mr. Maldonado, your struggle hits a deeply personal note 
for me. My family left Cuba in pursuit of the freedoms for 
which you are still fighting. I have the deepest respect for 
your courage and your tenacity in the face of brutal 
repression, of prison, of threats against your family and 
friends. And I agree with you completely that we must not 
kowtow to the brutal regime of the Castros, and we should not 
reward them or their military cronies the benefit of an open 
relationship with the United States until they release all 
political prisoners and work to improve the lives of all 
Cubans.
    Dr. Eldosari, I want to say your work and courage have 
amplified the voices of millions of women not just in Saudi 
Arabia but also around the world. There is never an excuse for 
violence against women or treating women less than men. You 
raise an interesting point about the consolidation of power and 
the reliance on a system of unfair governance to explain away 
these heinous crimes against women. There is direct connection 
between democracy, democratic institutions, and their role in 
protecting individual rights.
    And, Mr. Kasparov, I completely agree with your assessment 
that the United States and the rest of the world must express 
moral clarity and stand up against and in support of our allies 
in the face of Russian aggression. We have now seen firsthand 
the impact that Russian attempts to undermine our democratic 
system can have.
    Finally, for our first panelists, your work simply speaks 
volumes for itself. I thank you all for your service, for your 
commitment to promoting the values that makes this country 
great. Both of our main political parties in the United States 
deeply believe that strong political institutions that uphold 
the rule of law and promote good governance build stronger 
countries that form the basis of the international order, and I 
look forward to hearing your testimony.
    Senator Rubio. Well, we are going to--thank you, Senator 
Menendez.
    We are going to begin with our first panel. Let us begin 
with you, Mr. Carl Gershman. Thank you for being here today. I 
am sorry, right to left.

 STATEMENT OF CARL GERSHMAN, PRESIDENT, NATIONAL ENDOWMENT FOR 
                   DEMOCRACY, WASHINGTON, DC

    Mr. Gershman. Thank you, Mr. Chairman.
    Senator Rubio. Your left to right, my right to left.
    Mr. Gershman. Thank you, Mr. Chairman. I really want to 
thank you for holding this very timely and important hearing on 
the importance of U.S. leadership in supporting human rights 
and democracy in the world. And I want you to know what a 
tremendous honor it is for me to be speaking at the same 
hearing with my old friend Garry Kasparov, with El Sexto, who 
was just in prison--having him here is such a joy--and with 
Halah Eldosari, who we know very, very well.
    As we know, democracy today is being challenged as never 
before since the end of the Cold War. The crisis has many 
dimensions, including the rise of ISIS and other terrorist 
movements; growing illiberalism in Turkey, Hungary, the 
Philippines, and other backsliding democracies; 11 years of 
consecutive decline in global democracy, as measured by Freedom 
House; and, most importantly, what the letter of invitation to 
this hearing calls ``resurgent authoritarianism.''
    An editorial in The Washington Post last June defined 
resurgent authoritarianism as a modern-day version of the 
totalitarian threat that Winston Churchill decried in his 
famous Iron Curtain address in 1946. ``No longer is it about 
communism,'' the editorial said, ``but rather the rise of 
despots who rule by force and coercion, from Russia to China, 
across the Middle East and Central Asia, to Latin America and 
Africa.''
    In the past decade, these leaders have become more adept 
and daring at building a parallel universe to the liberal 
democratic order. In their construct, state power reigns 
supreme; political competition is extinguished; civil society 
elbowed out; and freedoms of expression, association, and 
belief suppressed. Surprisingly, some of these leaders, 
particularly in Russia and China, have been wielding a 
sophisticated and deceptive soft power beyond their borders 
that is proving more enduring and effective than in the past.
    And I want to note, Mr. Chairman, that last year, we 
published this book Authoritarianism Goes Global, which really 
gives a thorough elaboration of this new phenomenon.
    The Congress, through the appropriations process, has 
called upon NED to develop a strategic response to this new 
threat, saying that NED is ``uniquely positioned'' to do so 
because of its ``decades-long experience working in the most 
hostile political terrain through the core institutes and its 
global grants and programs.'' Building on work that was already 
being done through its ongoing grants programs and research 
activities, in 2016 NED was able to identify and fund startup 
programs to address six key strategic challenges:
    The need to strengthen democratic unity in defense of 
democratic norms and values that are under assault by 
authoritarian regimes in international institutions as well as 
in public attitudes.
    Second, the need to foster ethnic and religious pluralism 
to counter the spread of Islamist and other forms of religious 
and sectarian extremism.
    Third, the need to help civil-society activists and 
organizations prevail against the concerted campaign by 
authoritarian regimes to repress and control them.
    Fourth, the need to defend the integrity of the information 
space against efforts by Russia and other authoritarian regimes 
to use social media and other communications tools to buttress 
their own power and to divide, demoralize, and even destabilize 
democratic societies.
    Fifth, the need to strengthen the capacity for democratic 
governance so that new and fragile democracies are able to make 
progress toward democratic consolidation.
    And finally, the need to combat the rise of kleptocracy--or 
``rule by thieves''--a new and systemic feature of modern 
authoritarianism that, due to the way kleptocrats use their 
illicit funds internationally, also has the effect of eroding 
the integrity of institutions in democratic societies, 
including our own.
    NED's strategic grants complement its ongoing grants 
program in some 90 countries, strengthening its response to the 
formidable and integrated threat posed by the new wave of 
authoritarianism. We are finding new ways to tie programs 
together across regions, to stimulate broader international 
partnerships and coalitions, and to take sometimes isolated 
innovations and scale them up to a level that makes them more 
effective.
    Remarkably, these programs are reaching brave activists who 
are fighting for fundamental rights in some of the harshest 
political environments. These activists include North Korean 
defectors who are helping to break the information blockade 
that Pyongyang has used to keep the North Korean people totally 
isolated.
    They include Chinese lawyers who are defending religious 
freedom and the rule of law against harsh repression that is 
being urged on by the chief justice of their Supreme Court, who 
recently called upon provincial judges in China to ``show the 
sword'' against the idea of judicial independence.
    They include Cubans who are not only fighting for basic 
rights and political space but who are expanding their support 
networks by organizing around issues of local citizen concern.
    They include Venezuelans who, in addition to their 
continuing programs to defend human rights and reduce political 
polarization, are tracking food and medical shortages to help 
coordinate the international relief agencies' response to the 
worsening humanitarian crisis.
    And I might note, Mr. Chairman, that last year, we honored 
Lilian Tintori with our Democracy Award, and when we did, it 
showed the immense bipartisan support in the Congress for the 
struggle in Venezuela.
    They include Iraqi activists and members of local councils 
and governments who are implementing startup efforts to rebuild 
governance, promote economic development and reconciliation, 
and build trust at the local level between the community and 
the security forces in the area--in the areas liberated from 
ISIS control.
    Not least, they include Russian journalists, human rights 
defenders, and civic activists, many of whom have been declared 
foreign agents and must defend themselves in court against 
crippling fines but who still fight for basic rights and take 
great risks in exposing the kleptocratic practices of Russia's 
ruling class.
    We recognize, Mr. Chairman, that the battles these 
activists and others like them around the world are fighting 
will be long and hard. Democracy does not come swiftly or 
easily. We must recognize that trying to take shortcuts to 
democracy is as dangerous as relying upon autocrats to preserve 
stability. Either way, we will reap the whirlwind.
    And we should not forget that even when democracy is 
eventually achieved, it must be defended with eternal 
vigilance, as Thomas Jefferson once said. It must never be 
taken for granted, even in our own country.
    Those who are fighting for democracy deserve the support of 
the American people, and through the NED they receive it. They 
are defending the values we hold dear. They are the ones who 
will bring real democracy and, through that, lasting stability. 
In striving to fulfill their aspirations, they are advancing 
our own fundamental national interests. They are helping us 
live in a safer and more peaceful world, and for that they 
deserve our solidarity.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gershman follows:]

                  Prepared Statement of Carl Gershman

    Mr. Chairman, I want to thank you for holding this very timely and 
important hearing on the importance of U.S. leadership in supporting 
human rights and democracy in the world. As we know too well, democracy 
today is being challenged as never before since the end of the Cold 
War. The crisis has many dimensions, including the rise of ISIS and 
other terrorist movements; growing illiberalism in Turkey, Hungary, the 
Philippines and other backsliding democracies; 11 consecutive years of 
decline in global democracy, as measured by Freedom House; and, most 
importantly, what the letter of invitation to this hearing calls 
``resurgent authoritarianism.''
    An editorial in The Washington Post last June defined resurgent 
authoritarianism as a modern-day version of the totalitarian threat 
that Winston Churchill decried in his famous ``iron curtain'' address 
in 1946. ``No longer is it about communism,'' the editorial said, ``but 
rather the rise of despots who rule by force and coercion, from Russia 
to China, across the Middle East and Central Asia, to Latin America and 
Africa. In the past decade, these leaders have become more adept--and 
daring--at building a parallel universe to the liberal democratic 
order. In their construct, state power reigns supreme, political 
competition is extinguished, civil society elbowed out, and freedoms of 
expression, association and belief suppressed. Surprisingly, some of 
these leaders, particularly in Russia and China, have been wielding a 
sophisticated and deceptive soft power beyond their borders that is 
proving more enduring and effective than in the past.''
    The Congress, through the appropriations process, has called upon 
NED to develop a strategic response to this new threat, saying that NED 
is ``uniquely positioned'' to do so because of its ``decades-long 
experience working in the most hostile political terrain through the 
core institutes and its global grants and programs.'' Building on work 
that was already being done through its ongoing grants programs and 
research activities, in 2016 NED was able to identify and fund start-up 
programs to address six key strategic challenges:

   The need to strengthen democratic unity in defense of democratic 
        norms and values that are under assault by authoritarian 
        regimes in international institutions as well as in public 
        attitudes;

   The need to foster ethnic and religious pluralism to counter the 
        spread of Islamist and other forms of religious and sectarian 
        extremism;

   The need to help civil-society activists and organizations prevail 
        against the concerted campaign by authoritarian regimes to 
        repress and control them;

   The need to defend the integrity of the information space against 
        efforts by Russia and other authoritarian regimes to use social 
        media and other communications tools to buttress their own 
        power and to divide, demoralize, and even destabilize 
        democratic societies;

   The need to strengthen the capacity for democratic governance so 
        that new and fragile democracies are able to make progress 
        toward democratic consolidation; and

   The need to combat the rise of kleptocracy (or ``rule by 
        thieves'')--a new and systemic feature of modern 
        authoritarianism that, due to the way kleptocrats use their 
        illicit funds internationally, also has the effect of eroding 
        the integrity of institutions in democratic societies, 
        including our own.

    NED's strategic grants complement its on-going grants program in 
some 90 countries, strengthening its response to the formidable and 
integrated threat posed by the new wave of authoritarianism. We are 
finding new ways to tie programs together across regions, to stimulate 
broader international partnerships and coalitions, and to take 
sometimes isolated innovations and scale them up to a level that makes 
them more effective.
    Remarkably, these programs are reaching brave activists who are 
fighting for fundamental rights in some of the harshest political 
environments. These activists include North Korean defectors who are 
helping to break the information blockade that Pyongyang has used to 
keep the North Korean people totally isolated.
    They include Chinese lawyers who are defending religious freedom 
and the rule of law against harsh repression that is being urged on by 
the chief justice of the Supreme Court, who recently called upon 
provincial judges to ``show the sword'' against the idea of judicial 
independence.
    They include Cubans who are not only fighting for basic rights and 
political space, but who are expanding their support networks by 
organizing around issues of local citizen concern.
    They include Venezuelans who, in addition to their continuing 
programs to defend human rights and reduce political polarization, are 
tracking food and medical shortages to help coordinate the response of 
relief agencies to the worsening humanitarian crisis.
    They include Iraqi community activists and members of local 
councils and governments who are implementing start-up efforts to 
rebuild governance, promote economic development and reconciliation, 
and build trust at the local level between the community and the 
security services in the areas liberated from ISIS control.
    Not least, they include Russian journalists, human rights 
defenders, and civic activists, many of whom have been declared 
``foreign agents'' and must defend themselves in court against 
crippling fines, but who still fight for basic rights and take great 
risks in exposing the kleptocratic practices of Russia's ruling class.
    We recognize, Mr. Chairman, that the battles these activists, and 
others like them around the world, are fighting will be long and hard. 
Democracy does not come swiftly or easily. We must recognize that 
trying to take short-cuts to democracy is as dangerous as relying on 
autocrats to preserve stability. Either way, we will reap the 
whirlwind. And we should not forget that even when democracy is 
eventually achieved, it must be defended with eternal vigilance, as 
Thomas Jefferson once said. It must never be taken for granted, even in 
our own country.
    Those who are fighting for democracy deserve the support of the 
American people, and through the NED they receive it. They are 
defending the values we hold dear. They are the ones who will bring 
real democracy and, through that, lasting stability. In striving to 
fulfill their aspirations, they are advancing our own fundamental 
national interests. They are helping us live in as a free and more 
peaceful world, and for that they deserve our solidarity.

    Senator Rubio. Thank you.
    Ambassador Green, and just for the--so we can get into the 
questions because I have--we have read your statements. They 
are extraordinarily well-written. They are in the record. We 
just--so if you--if there is somehow we could do it in 5 
minutes each, that would be fantastic so we can get right into 
the questions. This is not censorship; this is a democracy 
hearing. I am just--no, we really want to get talking to you 
here so----

    STATEMENT OF HON. MARK GREEN, PRESIDENT, INTERNATIONAL 
              REPUBLICAN INSTITUTE, WASHINGTON, DC

    Ambassador Green. Yes, I will not take it as censorship.
    Thank you, Mr. Chairman, Ranking Member. I appreciate the 
opportunity to testify, and thank you for holding this hearing.
    Mr. Chairman, I will summarize my remarks here today. 
Really what I am here to argue is that America should support 
democracy and liberty overseas not only because it is the right 
thing to do, but as you both alluded, also because it is in our 
economic and security interests as well.
    Here is what I mean: Generally speaking, democracies--
citizen-centered, citizen-responsive governments--are more 
stable because they are more adaptable to change. They tend to 
be more prosperous, and therefore, they make better economic 
partners for the U.S. Democracies are less likely to produce 
terrorists or weapons of mass destruction because they provide 
outlets for dissent and they allow for diversity of opinion.
    Authoritarian regimes on the other hand inherently pose 
risks to order, peace, and stability. They often give rise to 
refugees, burdening and even destabilizing their neighbors. 
They maintain their iron grip on power in part by isolating 
their citizens from outside ideas and influences, and sometimes 
that means attacking, directly or indirectly, physically or 
digitally, democratic neighbors who model the freedoms that 
authoritarians most fear.
    Sometimes pundits point to authoritarian governments as 
models of stability, but often that stability is a veneer. In 
fact, these regimes are prone to sudden instability. Because 
their power is overly centralized in an individual or a small 
group, when a crisis removes that leadership, it leaves a dark 
vacuum that attracts the most dangerous elements.
    Turning to our work itself, Mr. Chairman, a guiding 
principle for all of us here is that we should not and indeed 
cannot impose our democracy on the citizens of other countries. 
Instead, our purpose is to walk with citizens and political 
leaders as they blaze their own democratic trail.
    Now, our work as evolved greatly over the last several 
decades. In the wake of communism's collapse, we focused 
largely on supporting issue-based political parties and 
preparing candidates in their first real elections. Then our 
work evolved to assist new governments in being more 
accountable, effective, and responsive to citizens, 
particularly traditionally marginalized communities.
    Our marginalized communities practice continues through 
today with initiatives like the Women's Democracy Network, 
which offers training, mentorships, and networking for women 
all around the world as they enter leadership. WDN has 16 fully 
independent chapters and touches 17,000 women in more than 60 
countries.
    Our latest initiative is Generation Democracy, a network of 
more than 400 youth organizations. It aims to help young people 
move from broad passion and idealism to constructive 
participation in political life.
    Mr. Chairman, each of us here today can point to where, 
working together--and in most places we are working together--
we have been able to help citizens and activists on their 
journey. There is the story of Burma, and ethnically diverse, 
culturally rich country with nearly unlimited economic 
potential, but its people suffered for decades under a brutal 
military dictatorship. Dissidents were often tortured and 
imprisoned for transgressions as simple as gathering in a group 
of more than five people.
    When IRI and NDI began working there 25 years ago, 
government crackdowns forced us to operate from just across the 
border in Thailand, but we were a lifeline to activists and 
opposition political parties, including Aung San Suu Kyi's 
National League for Democracy. Eventually, in 2013 we were able 
to open a formal office inside Burma itself. Since then, we 
have engaged over 200,000 people from 340 organizations, from 
political parties to local civil society organizations. Twenty 
percent of all the elected national, state, and regional 
parliamentarians serving today were actually trained by IRI.
    Now, there is no doubt that Burma's civilian-led government 
has a long way to go. It faces real challenges from a failing 
infrastructure to disturbing ethnic and religious violence. But 
given how far they have come, there is every reason to believe 
that they can be a beacon to the region.
    Tunisia is another great example of how American support 
for democracy can make a difference even in a difficult 
neighborhood. Despite extreme pressures from outside extremist 
forces, Tunisia has held successive credible elections, solved 
problems through compromise, and consistently demonstrated a 
strong desire to be a U.S. ally.
    Immediately after a youth-led revolution chased Ben Ali 
from power, we all responded quickly to support the voices 
demanding a say in their country's future. We conducted 
hundreds of training workshops to develop political parties. We 
helped civil society representatives foster meaningful lines of 
communication between government and citizens and we have 
strengthened Tunisian civil society by networking more than 60 
organizations to promote government accountability.
    As with Burma, Tunisia faces serious challenges. The 
government and the economy have been rocked by terrorism, and 
corruption continues to threaten its rise. We all believe that 
it is crucial that organizations like ours stay engaged to help 
them in their journey.
    Mr. Chairman, in his famous Westminster address President 
Reagan told us all that ``Democracy is not a fragile flower; 
still it needs cultivating.'' Some of the most notable 
successes in recent years--Tunisia, The Gambia, Burma, Ukraine, 
and others--offer proof of the difference that U.S.-supported 
cultivating can make.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Green follows:]

                 Prepared Statement of Hon. Mark Green

    Chairman Rubio, Ranking Member Menendez, Members of the Committee, 
thank you for holding this timely and important hearing, and thank you 
for the opportunity to testify. By way of background, the International 
Republican Institute (IRI) is a nonprofit, nonpartisan organization 
working in more than 60 countries around the world. We trace our roots 
back to President Reagan and his unshakeable belief that, ``Freedom is 
not the sole prerogative of a lucky few, but the inalienable and 
universal right of all human beings.''
            advancing democracy is in our strategic interest
    Mr. Chairman, based upon our three decades of experience, I believe 
that America should support democracy and liberty, not only because it 
is the right thing to do morally, but because it is very much in 
America's economic and security interests. Generally speaking, 
democracies--citizen-centered, citizen-responsive governments--are more 
adaptable to change and are therefore more stable. They tend to be more 
prosperous, which makes them better trading partners and markets for 
U.S. goods. Because they tolerate diversity of opinion and allow for 
dissent, they are less likely to produce terrorists, proliferate 
weapons of mass destruction, or engage in armed aggression. That makes 
them better neighbors and makes their regions more secure.
    By contrast, authoritarian regimes, over the long run, pose 
significant risks to peace and stability. They often give rise to 
refugee populations, burdening and potentially destabilizing their 
neighbors. In order to maintain their grip on power, such regimes 
repress their people and seek to isolate their citizens from outside 
ideas and influences. They attack--directly or indirectly, physically 
or digitally--those outside their borders that model or represent the 
freedom authoritarians fear. Finally, because authoritarians are often 
incapable of meeting the aspirations of their citizens, they are prone 
to sudden instability. Such regimes are stable, but only until they are 
not. Since tyrants tend to spend little time or capital on grooming 
other leaders or fostering responsive institutions, when they are 
removed by death or crisis, it often opens up a power vacuum that 
attracts dangerous elements.
                     democracy is never ``imposed''
    Mr. Chairman, it is a basic tenet of our work that we do not, and 
indeed cannot, ``impose'' our democracy or national values on the 
citizens of other countries. Democracy is, after all, government by 
consent of the governed. Our purpose is to walk with citizens and 
political leaders around the world as they set out on their own journey 
towards a more democratic future. As citizens work to strengthen their 
voice in government, we offer tools to help. As leaders explore ways to 
learn more about, and respond to, citizen priorities, we offer tools to 
help.
               democracy work has changed over the years
    Just as the world has changed dramatically over the last several 
decades, so has the nature of our work. In the wake of communism's 
collapse, our focus was largely on developing political parties and 
preparing candidates to stand for election. In former Warsaw Pact 
satellites and the Baltic States, for example, we supported pro-reform, 
pro-democratic political parties which, whether in power or in 
opposition, helped those countries meet the demands of integrating into 
NATO and the EU. We assisted them in developing responsive platforms, 
and taught them the basics of political communications and the 
marketplace of ideas. Our goal was to help them become productive, 
contributing members of the transatlantic community.
    Since those early days, acknowledging that democratic progress is 
much more than a single election, our work evolved to address all 
components of democratic systems. Following elections in those post-
communist states, newly-elected leaders needed to continue delivering 
to citizens after reaching office. Our work evolved to assist 
governments in being more accessible, accountable, effective, 
inclusive, and responsive to citizens. As new foreign policy challenges 
and democratic opportunities arose across the globe--in Asia, Latin 
America, Africa--we replicated this important work, learning from each 
experience and sharing approaches across countries and regions.
    But it's not just about what a government can supply, it's also 
about equipping citizens with the skills needed to hold their 
government accountable and to advocate for change. Vitally important in 
this work is ensuring that all citizens--particularly traditionally 
marginalized people--have the skills needed to have a voice in the 
political process.
    For example, we work with Afro-Colombians in Colombia, the deaf in 
Mongolia, and indigenous leaders in Guatemala and Mexico to help them 
each amplify their voice in civil society and the public arena.
    Perhaps our strongest and best-known initiative in this regard is 
our groundbreaking Women's Democracy Network (WDN). While we are not a 
``women's organization'' per se, it is our core belief that no 
democracy can be truly representative if it essentially fails to listen 
to half its people. No democracy can expect to succeed in meeting 
today's complex challenges unless it turns to all parts of its 
citizenry for the leadership it needs. WDN offers political training 
and mentorships, networking opportunities and workshops on leadership 
skills, all with an eye towards overcoming the biases and barriers 
women often face. WDN has 16 fully independent chapters around the 
world, touching over 17,000 women in more than 60 countries. Our latest 
initiative to empower marginalized communities is Generation 
Democracy--a youth-led, global movement of more than 400 member 
organizations. Generation Democracy aims to help young people move 
beyond broad idealism into active engagement in political life and 
policy advocacy.
    So what does all of this look like in practical terms? Mr. 
Chairman, to help illustrate, I'd like to briefly describe the 
democratic journey of two important countries, Burma and Tunisia. In 
both cases, it seemed for many years as though democracy would never 
come. But thanks to the courageous advocacy of everyday citizens and, 
yes, the support of IRI, NDI and others, tremendous strides have been 
made.
         burma: from military dictatorship to hopeful democracy
    Burma is an ethnically diverse, culturally rich country with nearly 
unlimited economic potential. For the last five decades, however, its 
story has also been a tragic one as a brutal military dictatorship held 
absolute power. Dissidents were frequently interrogated, tortured and 
imprisoned for ``transgressions'' as simple as gathering in a group of 
more than five people. We began working there 25 years ago, during a 
period when government crackdowns were commonplace. Despite the 
regime's brutality, it was still clear that citizens were holding onto 
their dreams of freedom and their quest for a voice in their own 
future.
    In those difficult years, IRI, along with NDI and NED, worked from 
outside Burma's border in Thailand, supporting opposition political 
parties--including Aung San Suu Kyi's National League for Democracy 
(NLD). We assisted pro-democracy activists with messaging, strategic 
communications, and operational capacity building so that their work 
could be more focused and effective. We also trained activists in the 
nuts-and-bolts of democratic politics through political party 
development, advocacy and legal awareness workshops, and technical 
skills-building to provide activists with the necessary tools to 
connect with the international community. It's fair to say that for two 
decades, we were quite literally a lifeline to the democracy movement.
    In 2013, pressure from both courageous democratic voices inside the 
country and the international community led to conditions improving 
enough for IRI to open a formal office inside Burma itself. Since then, 
with the knowledge of the national government, IRI has provided direct 
assistance to support Burma's nascent democracy. We have engaged more 
than 200,000 people from 340 organizations, from political parties to 
local civil society organizations. Leading up to the 2015 elections, we 
trained political party leaders in all 14 states and regions. Civic and 
voter education activities carried out by our local partners helped 
prepare 164,000 citizens to vote in those elections. With the help of 
IRI and others, the 2015 elections were largely peaceful and, under the 
watchful eyes of domestic and international observers, carried out in a 
manner most described as ``credible and competitive.'' IRI's work left 
a lasting impact. Twenty percent of all the elected national, state, 
and regional parliamentarians serving today and 10 percent of all of 
the women candidates who ran in 2015 were trained by IRI.
    Mr. Chairman, as you know, one credible election does not make a 
vibrant democracy. While the country has made remarkable strides in 
recent years, the civilian-led government still faces serious 
challenges, from a decrepit infrastructure and failing education system 
to disturbing ethnic and religious violence. On the democracy front, we 
continue to implement United States Agency for International 
Development (USAID)-funded programs to support to political parties, 
civil society organizations, women leaders, and Members of Parliament 
through workshops, trainings, and targeted consultations. Democracy is 
still fragile and governing institutions are still underdeveloped. In 
short, the country's new democratic leaders need our continued help.
    Several months ago, one of our staff members, who was born and 
raised in Burma and was a prominent activist in Burma's early 
democratic movement, returned to his home country 40 years after his 
first arrest for his pro-democracy activities. He had endured a month 
of interrogation, torture and solitary confinement. After his release, 
he told his interrogators, ``You cannot destroy my heart--my mind is 
separate. You can beat me--any part of my body, but you cannot touch my 
heart.'' When he told us he wanted to go home after 16 years with us in 
the U.S., he said ``I want to give my final days to my people.''
           tunisia: democracy in a ``difficult neighborhood''
    Tunisia is one of the most promising democratic stories of recent 
times -an example of democracy taking root in a ``difficult 
neighborhood.'' Despite extremist pressures from outside forces, 
Tunisia has held successive credible elections, solved problems through 
compromise, and consistently demonstrated a strong desire to be an ally 
to the United States. While the country's leaders would be the first to 
say that their democracy is still fragile, they also take great pride 
in the progress they've made on a journey along which many others in 
the region have stumbled. A stable, democratic and prosperous Tunisia 
could serve as an example to the rest of the region of how to build a 
society that is less vulnerable to extremism.
    Prior to 2011, Tunisia was an unsettling place. Our staff traveled 
there several times in the early 2000s and were accustomed to being 
followed from meeting to meeting by government security. The Ben Ali 
regime, consisting of his Democratic Constitutional Rally party, the 
Ministry of Interior and its associated security organs, controlled 
nearly every facet of public life. Fear of persecution meant that 
discussions in cafes and restaurants occurred in hushed voices, if they 
occurred at all.
    That all changed in 2011 with the youth-lead revolution that chased 
Ben Ali from power. Following the demise of Ben Ali's tyrannical reign, 
IRI quickly responded by mobilizing an in-country presence and 
operation. Since then, we have conducted hundreds of training workshops 
to develop political parties. We have deployed international election 
observation missions for each national election. We have taught 
Tunisian civil society how to open and sustain channels of 
communication between government and citizens--particularly those 
historically marginalized groups, including youth, women and citizens 
in the interior. We have helped government officials develop policies 
and legislation that respond to citizen priorities. Finally, we have 
assisted Tunisia's national government ministries develop improved 
internal coordination and communications mechanisms, working across 
multiple ministries to organize initiatives such as the National Youth 
Congress.
    It's hard not to be impressed by how Tunisians have put the tools 
and training we have provided to work. More than 20 Tunisian national 
ministries are now participating in the inter-ministerial working group 
mechanism established with IRI's help. We are seeing signs of a multi-
party political system that appreciates the importance of public 
opinion research. The National Youth Congress is well on its way to 
producing a citizen-developed comprehensive national strategy to 
support youth. We have strengthened Tunisian civil society by 
networking more than 60 organizations into a national initiative that 
promotes government accountability.
    Make no mistake: much work remains to be done in Tunisia. Public 
trust in government institutions is low. While corruption has only 
recently become a policy priority, it has been a festering problem ever 
since the 2011 revolution. The country is wrestling with the challenges 
of decentralization and devolution of power, and still lacks a clear 
vision of what responsibilities local elected officials will or should 
have. As with Burma, it is crucial that the U.S.--and organizations 
like IRI and NDI--remain engaged. Their path towards a vibrant 
democracy still has twists and bumps, and we should continue to walk 
side by side on that journey.
                             looking ahead
    In his famous Westminster address, President Reagan told us all 
that ``democracy is not a fragile flower; still it needs cultivating.'' 
Some of the most notable successes in recent years--Tunisia, The 
Gambia, Burma, Ukraine and others--offer proof of the difference that 
U.S.-supported ``cultivating'' can make.
    For the reasons I stated earlier--both values-based and strategic--
advancing democracy and liberty should be reinforced as a priority in 
American foreign policy. That means such issues should not be relegated 
to side meetings when the President sees world leaders, but instead 
should be a topic (if one of many) at the ``main event.'' Furthermore, 
as President Reagan often did, President Trump should reach out to 
civil society leaders to both learn about the challenges they face and 
to demonstrate solidarity.
    Finally, within our country's foreign assistance framework, I would 
encourage the administration to ensure that our tools for supporting 
democracy and liberty remain strong. In the long run, our nation's 
investments in global health, nutrition and infrastructure around the 
world are unlikely to succeed if the governments with whom we partner 
lack strong, citizen-centered institutions.
    America's most effective foreign policy is one that taps into all 
the sources of our strength and mobilizes all our tools of leadership. 
Military might is irreplaceable; economic vitality makes so much 
possible. But our core national values--democracy and human liberty--
and our willingness to foster and encourage them in others, are a 
critical tool in shaping an often turbulent world. We need to ensure 
that this tool is as sharp as ever during the challenging times we all 
see.

    Senator Rubio. Thank you, Ambassador.
    Mr. Wollack.

 STATEMENT OF KENNETH WOLLACK, PRESIDENT, NATIONAL DEMOCRATIC 
                   INSTITUTE, WASHINGTON, DC

    Mr. Wollack. Mr. Chairman, Ranking Member Menendez, thank 
you for inviting NDI to present our views on these important 
issues.
    The notion that there should be a dichotomy between our 
moral preferences and our strategic interests is really a false 
one. Our ultimate foreign policy goal is a world that is 
secure, stable, humane, and safe where the risk of war is 
minimal, yet the reality is that hotspots most likely to erupt 
in violence are found for the most part in areas of the world 
that are nondemocratic, places that have been defined by the 
Defense Department as the ``arc of instability.'' These are 
places that experience ethnic conflict and civil war. They 
generate refugee flows across borders. They are places where 
terrorists are harbored----
    Senator Rubio. Mr. Wollack, is your microphone on just for 
purposes of our transcripts? Try it now.
    Mr. Wollack. They generate refugee flows across borders. 
They are places where terrorists are harbored and illegal drugs 
are produced.
    As Tom Carothers of the Carnegie Endowment points out, ``In 
most of the dozens of countries where the United States is 
employing diplomatic, economic, and assistance measures to 
support potential or struggling democratic transitions--from 
Cambodia, Indonesia, and Mongolia to El Salvador, Kenya, 
Nigeria, and Venezuela--such efforts align closely with and 
serve a critical array of unquestionably hard interests. These 
include limiting the strategic reach of the United States' 
autocratic rivals, fighting terrorism, reducing international 
drug trafficking, and undercutting drivers or massive refugee 
flows.''
    We have learned that in this interconnected world what 
happens for good or for evil within the borders of nations has 
global impact. Contrary to that famous tagline in tourism 
marketing, what happens, let us say, in Kyiv or Cairo does not 
stay there.
    We have experienced a decade of democratic recession, with 
a decline of political rights globally. Authoritarian regimes 
have become more aggressive and sophisticated in stifling the 
voices of civil society and political opponents, undercutting 
independent media and judicial independence, and manipulating 
elections. These regimes are also using new tools to disrupt 
elections and democratic systems beyond their borders. At the 
same time, new fragile democracies are struggling to meet 
rising expectations, and even established democracies have been 
beset by growing citizen discontent with the performance of 
their democratic institutions.
    Yet there is another more positive story that should remind 
us about the universal demand for democracy and progress being 
made sometimes in the most challenging of environments. Public 
opinion polls from countries in every region of the world have 
shown that vast majorities agree that democracy is the best 
system. Nascent African democracies of Ghana, Cote d'Ivoire, 
Senegal, Mozambique, and Sierra Leone are among the world's 
fastest-growing economies, while many countries--including 
Indonesia, Mongolia, Chile, Colombia, Georgia, South Korean, 
and Mexico--have continued to make strides in both 
consolidating their democracies and maintaining steady economic 
growth. And there are also places where democratic setbacks 
have been reversed either by the demands of citizen movements, 
as was the case in Burkina Faso, or through the intervention of 
intergovernmental organizations, as recently occurred in The 
Gambia.
    I would like to point to democracy support efforts in two 
challenging environments--in Ukraine and in Syria--which is 
seemingly one of the most unlikely places on earth to find good 
news on this front. Ukraine undoubtedly continues to face grave 
challenges, including economic dislocation and corruption, not 
mention occupation in the south and a war in the east. 
Purveyors of false news would have us believe that the country 
is deeply divided and that a large portion of the population is 
desperate to be rescued by Russia. The truth, however, is 
exactly the opposite. According to NDI's research, 86 percent 
of Ukrainians believe it is important or very important that 
their country is democratic. This is truth whether respondents 
live in the east or the west and regardless of political 
affiliations. Ukrainians feel strongly that they will not give 
up their right to determine their own future even if doing so 
would bring peace.
    And with outside encouragement and support, Ukrainians can 
point to concrete achievements. These include the emergence of 
new political parties that have national reach and are focused 
on citizens they represent rather than the oligarchs who would 
fund them. Brought together by NDI in partnership with European 
institutions, party factions of the Parliament are overcoming 
deep fragmentation to agree on procedures that will make it 
easier to build consensus around future reforms.
    At the local level, citizens are participating in decision-
making in large numbers. In our programs alone, more than 
45,000 citizens have engaged directly in the national reform 
process and more than 1.3 million have been reached by 
television. These are the kinds of bottom-up changes that, 
given time and continued support, can put down deep democratic 
roots.
    In the midst of massive humanitarian crisis and refugee 
flight in Syria, another story of democratic resilience is 
unfolding. In liberated territories across Syria, citizen 
groups are prioritizing community needs and local 
administrative councils are responding by providing critical 
services. These democratic subcultures can become a model for 
the country's future once the conflict subsides. More than two 
dozen NDI governance advisors are working each day in 34 of 
these locations helping to advise local groups and councils and 
bringing them together to solve problems. Courageously and 
successfully, these groups and councils have challenged 
extremists who have sought to establish parallel governing 
structures. As one regional news outlet noted, ``You may think 
Syrians are condemned to an unpleasant choice between Bashar 
Al-Assad and the jihadists, but the real choice being fought 
out by Syrians is between violent authoritarianism on the one 
hand and grassroots democracy on the other.''
    Mr. Chairman, the citizens of our country, from its very 
founding, have held the conviction that to ``secure the 
blessings of liberty for ourselves and our country,'' we must 
establish government that derives legitimacy and power from the 
consent of the people. We received the help of others in our 
founding, and from that point onward have embraced the ethic of 
assisting those around the world who stepped forward--sometimes 
at great risk in their own countries--to promote, establish, 
and sustain democracy. We as a nation have benefited from the 
peace that global democratic development produces and from the 
economic opportunities that it creates.
    Thank you very much.
    [The prepared statement of Mr. Wollack follows:]

                 Prepared Statement of Kenneth Wollack

    Chairman Rubio, Ranking member Menendez and members of the 
Subcommittee, I appreciate the opportunity on behalf of the National 
Democratic Institute (NDI) to present our views on the importance and 
efficacy of U.S. efforts to support the global development of 
democratic institutions and practices.
    Democracy promotion, long a pillar of America's foreign policy 
framework, has, in recent years and in certain circles, become an issue 
of some debate. Paradoxically, and wrongly in my view, democracy 
assistance is viewed either as too soft or idealistic as a response to 
serious security threats facing the nation; or it is seen as too 
bellicose--conflated with regime change and the use of military force. 
The real issue, however, is not whether democracy promotion is ``hard'' 
or ``soft'' or whether it fits neatly into the ``realism'' or 
``idealism'' paradigms. The issue, rather, is whether advancing 
democracy is an important means of advancing America's interests and 
protecting our national security in a turbulent and often violent 
world. I think the answer is clearly ``yes.''
    The notion that there should be a dichotomy between our moral 
preferences and our strategic interests is a false one. Our ultimate 
foreign policy goal is a world that is secure, stable, humane, and 
safe, where the risk of war is minimal. Yet, the reality is that 
hotspots most likely to erupt into violence are found, for the most 
part, in areas of the world that are nondemocratic--places that have 
been defined by the Defense Department as the ``arc of instability.'' 
These are places that experience ethnic conflict and civil war; they 
generate refugee flows across borders; they are places where terrorists 
are harbored and illegal drugs are produced. The international 
community has rightly worked to restore order by helping to establish a 
democratic framework for governance in a number of these countries. The 
response has not always been entirely successful, but on the whole, the 
introduction of democratic processes and citizen engagement have made 
these countries less dangerous than they had been. The cost for the 
United States in this effort has been relatively inexpensive. Foreign 
assistance is only about 1 percent of the total U.S. budget; and 
democracy assistance represents just 4 percent of our foreign aid.
    As Tom Carothers of the Carnegie Endowment points out, ``In most of 
the dozens of countries where the United States is employing 
diplomatic, economic, and assistance measures to support potential or 
struggling democratic transitions--from Cambodia, Indonesia, and 
Mongolia to El Salvador, Kenya, Nigeria, and Venezuela--such efforts 
align closely with and serve a critical array of unquestionably hard 
interests. These include limiting the strategic reach of the United 
States' autocratic rivals, fighting terrorism, reducing international 
drug trafficking, and undercutting drivers of massive refugee flows.''
    There are those who have argued that the Arab Spring unleashed a 
new area of instability in the Middle East by toppling repressive, but 
so-called ``stable'' regimes. However, this idea that autocracy equals 
stability collapses under scrutiny as the remaining supposedly stable 
regimes are increasingly the locus of conflict; while those places that 
are going through democratic transition, such as Tunisia, or are 
engaged in either political reforms or liberalization--as is the case 
in Morocco, Jordan, Lebanon and Algeria--are better able to address 
economic challenges, and threats from extremist ideologies and groups. 
As President Kennedy once said, ``Those who make peaceful revolution 
impossible will make violent revolution inevitable.''
    Even from the traditional foreign aid perspective, economic 
assistance alone can not achieve sustained economic growth and social 
stability. Political systems that lack accountability mechanisms or 
sufficient political and social inclusion are usually plagued by 
corruption or conflict, both of which undermine the objectives of 
economic development aid to achieve self-sustaining growth and poverty 
reduction. Deforestation, rural dislocation, environmental degradation, 
and agricultural policies that lead to famine all trace to political 
systems in which the victims have no political voice; in which 
government institutions feel no obligation to answer to the people; and 
in which special interests feel free to exploit the resources, land and 
people without fear of oversight or the need to account. The respected 
diplomat, Princeton Lyman, reminded his colleagues in a 1998 cable that 
the problem with even an enlightened authoritarian leader is that 
``blinded by economic success, hubris takes over along with greed: his 
or her rule is perpetuated, and corruption grows.'' He urged 
policymakers at that time to judge trends, rather than the snapshot of 
the day.
    During the 1980s, an important lesson was learned about political 
transformations in countries like the Philippines and Chile: that 
forces on the political fringes enjoy a mutually reinforcing 
relationship, drawing strength from each other and, in the process, 
marginalizing a democratic center. Prospects for peace and stability 
only emerged once democratic political parties and civil society were 
able to offer a viable alternative to the extremes. These democratic 
forces benefited from the solidarity and support they received from the 
international community and, in the United States, Republicans and 
Democrats joined together to champion their cause. Today, these 
conditions find their parallel in other countries around the world.
    When World War II ended, fewer than a dozen democracies stood as 
the Iron Curtain rose, military dictatorships proliferated, and 
colonialism sought to regain its footing. Major breakthroughs against 
those trends began with the so-called third wave of democratization 
which, since the 1970s, impacted more than 100 countries where people 
in every region of the world struggled against oppression and for 
government based on popular will.
    Freedom House, The Economist, and others, however, have now 
chronicled a decade of democratic recession, with a decline of 
political rights globally, along with a decreasing number of 
democracies. Autocrats have become more aggressive and sophisticated in 
stifling the voices of civil society and political opponents, 
undercutting independent media and judicial independence and 
manipulating elections.
    Authoritarian regimes are also using a broader and more aggressive 
set of tools to advance their interests, including various forms of 
electoral espionage, the hacking of politicians and political parties, 
and the dissemination of misinformation and fake news--all designed to 
skew electoral outcomes and to discredit democratic systems. Repressive 
regimes are using what we call ``distributed denial of democracy'' 
(DDoD) attacks to pollute new media channels with disinformation, 
making new media less useful as a mechanism for legitimate democratic 
discourse. These misinformation campaigns use troll farms and botnets 
to amplify certain stories on new media. Such efforts also aim to 
create a false equivalency between legitimate international democracy 
assistance and foreign interference that disrupts democratic dialogue, 
practices, and elections.
    At the same time, new, fragile democracies are struggling to meet 
rising expectations of their citizens, particularly with regard to 
efforts that would combat corruption and improve standards of living. 
Democratic transitions have been stymied or reversed by violence and 
terrorism by non-state actors, or by the inability of democratic 
movements to move from ``protest to politics'' and to challenge the 
resiliency of the so-called ``deep state''--the elites and institutions 
that benefited from years of corruption and impunity afforded by 
entrenched autocracy. And even established democracies have been beset 
by political polarization and growing citizen discontent with the 
performance of democratic institutions and elected leaders.
    Yet there is another, more positive story--a story that should 
remind us about the universal demand for democracy and progress being 
made, sometimes in the most challenging of environments. Public opinion 
polls from countries in every region of the world have shown that vast 
majorities agree that democracy, despite its problems, is the best 
political system. One recent study of more than 800 protest movements 
around the world show that they are not driven primarily by a desire 
for better economic conditions, but rather by demands for a better 
democracy, which the protesters believe can better address economic 
issues. This shows that the desire for improved economic opportunities 
often coexists with the demand for a political voice. And in today's 
interdependent world, citizens will not indefinitely postpone the 
latter for the former. Admittedly, there have been times when many 
citizens seemingly abandoned democratic aspirations because of 
instability, insecurity, or the performance of government. This was the 
case in Pakistan, Venezuela, Cote d'Ivoire, Egypt, and Chile; but broad 
support for authoritarian rule in these places has been short lived.
    Then there are countries where active civil societies and reform-
minded political leadership have maintained positive democratic 
trajectories. In Africa, for example, only three heads of state between 
1960 and 1990 relinquished power voluntarily or after losing an 
election; since 1990, that figure stands at more than 40. Nascent 
African democracies of Ghana, Cote d'Ivoire, Senegal, Mozambique, and 
Sierra Leone are among the world's fastest growing economies, while 
many countries--including Indonesia, Mongolia, Chile, Colombia, 
Georgia, South Korea and Mexico--have continued to make strides in both 
consolidating their democracies and maintaining steady economic growth. 
There are also places where democratic setbacks have been reversed, 
either by the demands of citizen movements, as was the case in Burkina 
Faso, or through the intervention of regional organizations as recently 
occurred in The Gambia. And in Myanmar/Burma, Ukraine, and Tunisia, 
active U.S. support for the democratic transitions underway have 
reflected the convergence of our values and strategic interests.
    Since the National Endowment for Democracy (NED) and the four core 
institutes of the Endowment were established, we have learned a great 
deal about democratic change, along with appropriate and effective ways 
to nurture and support democracy. I would like to share some 
fundamental lessons.
    First, in this interconnected and interdependent world, what 
happens for good or for bad within the borders of nations haves 
regional and, sometimes, global impact. Contrary to that famous tagline 
in tourism marketing, what happens, let's say, in Kyiv or Cairo doesn't 
stay there. Therefore, at a basic level, we have a direct interest in 
how people live and how they are treated by their governments.
    Second, the credibility of a democracy ultimately depends on how it 
works in practice and on what it delivers. Democracies must be able to 
hold credible elections so that the institutions that emerge from those 
polls enjoy legitimacy. But those institutions must be built and 
strengthened between elections, and citizen engagement must be 
developed and sustained. Nascent democratic regimes often inherit the 
legacies of their nondemocratic predecessors--poverty, corruption and 
political exclusion. And when those institutions fail to meet public 
expectations, opportunities are created for populist, often 
nondemocratic leaders who will roll back hard-won democratic gains.
    The once rapid pace of democratic change had led many in the 
democracy community to hope, if not expect, that progress toward fuller 
democracy would be more linear than has been the case. As the late 
Polish historian and politician Bronislaw Geremek warned, ``Democracy 
is by no means a process that goes from triumph to triumph nor is it 
exempt from creating the very conditions that undermine it.'' This 
means long-term commitments are necessary to support a culture of 
transparency, participation, and accountability.
    Sustaining socioeconomic development over the long term requires a 
political system whose incentive structures make it more likely that 
responsive, reform-minded, and accountable politicians will emerge at 
all levels of government. It requires governments that have the popular 
support and legitimacy to sustain development policies. It also 
requires mechanisms for orderly alternation of power in order to reduce 
the incentives for corruption that inevitably affect governments with 
no fear of losing office. It requires strengthened policy development 
and capacity within political parties in order to help raise the level 
of political discourse. It requires effective legislatures--with 
significant roles for opposition voices and the means to build broader 
consensus on public policy issues--in order to avoid policy reversals 
when governments turn over. It requires greater voice and power for 
citizens, particularly women and young people, along with historically 
marginalized communities, in order to complement increased economic 
empowerment with increased political participation.
    Third, while citizens around the world have begun to harness the 
benefits of information and communication technology to amplify their 
voices, their political institutions have often been slower to respond. 
As one tech leader explained via Twitter, ``Citizens using 21st cent 
tools to talk, gov't using 20th cent tools to listen, and 19th cent 
processes to respond.'' As technology innovation amplifies the voices 
of desegregated citizen interests, fledgling democratic institutions--
governments, parliaments, and political parties--must harness 
innovation to strengthen deliberative discourse, broker compromise, and 
respond in a timely and effective manner.
    New responses are also needed as authoritarian regimes have become 
more aggressive in utilizing technology to subvert democracy and to 
project their interests internationally. These include: cyber security 
support; media literacy training with respect to disinformation spread 
through new media; assistance to civic, media, and political groups 
that can expose and combat misinformation; and policy advocacy with 
technology firms to help them understand the impact of their policies 
on democratic discourse and to help them prevent their platforms from 
being used in DDoD attacks.
    Fourth, for those of us in this country who are engaged in 
assisting democratic development overseas, we have been most successful 
when we have joined with others in the international community, 
including governments, intergovernmental organizations, other 
nongovernmental groups, along with individual practitioners. As a 
practical matter, people making a democratic transition require diverse 
experiences and expertise, along with broad peer support. Cooperative 
approaches also convey a deeper truth: that democrats are joining a 
community of nations which have traversed the same course, that they 
can count on natural allies and an active support structure because 
other nations are concerned and are watching.
    Fifth, the U.S. government--including the White House, State 
Department, Congress, and overseas embassies--can set the tone and 
foreign aid can provide needed resources. Yet, much of the day-to-day 
democratic development work should be carried out, with proper 
oversight, by nongovernmental organizations, which operate in the realm 
of people-to-people relations. Such mission-driven groups often have 
pre-existing, global relationships and are not constrained by the 
stringent rules of formal diplomacy. Most important, in countries where 
a primary issue is the paucity of autonomous civic and political 
institutions, the very idea that government ought not control all 
aspects of society can be undermined by a too visible and too direct 
donor government hand.
    Ultimately, it is the nature of relationships with local partners 
that matter the most. In a recent New York Times op-ed, David Brooks 
asked a veteran youth activist in this country about which programs 
``turn around'' the lives of kids living in poverty. ``I still haven't 
seen one program change one kid's life,'' he replied. ``What changes 
people is relationships.'' The same can be said about successful 
democracy efforts overseas. How positive relationships with local 
partners are established, developed, and evolve will ultimately 
determine the success or failure of any and all interventions.
    Sixth, pluralism in democracy assistance has served the United 
States well, allowing for diverse yet complementary programming that, 
over the long term, could not be sustained by a highly static and 
centralized system. Funding by the NED has allowed the Endowment and 
its four core institutes to plan strategically, yet respond quickly and 
flexibly to emerging opportunities and sudden problems in rapidly 
shifting political environments. In addition, the NED has been able to 
operate effectively in closed societies where direct government 
engagement is more difficult. USAID has provided the basis for longer-
term commitments in helping to develop a country's democratic 
institutions. The State Department's Bureau for Democracy, Human Rights 
and Labor and other programs within the Department, such as the Middle 
East Partnership, have given the U.S. government the capacity to 
support--without cumbersome regulations--cutting edge and highly 
focused democracy initiatives for individual countries, as well for 
regional and global initiatives.
    Seventh, and finally, democracy assistance can best be delivered in 
four ways: 1) through direct, in-country presence where long term, day-
to-day relationships can be established and nurtured. (In nondemocratic 
places that prohibit such engagement, long distance learning using 
information technology and offshore programs can maintain solidarity 
and provide more limited but critical outside support to groups and 
individuals); 2) through targeted financial support to governments, 
election commissions, civil society groups, and parliaments; 3) through 
international and regional networks that can offer peer support; and 4) 
through the development and application of international norms and 
standards. The latter two approaches are designed to provide external 
incentives for reform, particularly in places where local 
organizations, leaders, and institutions seek to become members of a 
global community--whether a community of civic groups, political 
parties, parliaments, or governments. Examples of these communities 
include the Open Government Partnership, the four major international 
groupings of political parties, the Community of Democracies, the 
Global Network of Domestic Election Monitors, and the World Movement 
for Democracy. In this regard, the House Democracy Partnership, led by 
Representatives Peter Roskam and David Price, has contributed 
measurably to parliamentary strengthening efforts in 19 countries to 
date.
    My colleague, Mark Green, at the International Republican Institute 
will speak on the progress being made in the transition process in 
Burma/Myanmar and Tunisia. I would like to point to democracy support 
efforts in two other challenging environments: in Ukraine and in Syria, 
which is seemingly one of the most unlikely places on earth to find 
good news on this front. These efforts have been supported by the NED, 
USAID, the Department of State, the Canadian and British governments, 
and others.
    Ukraine undoubtedly continues to face grave challenges, including 
severe economic problems, deeply-rooted corruption, public impatience 
with the pace of reform--not to mention occupation in the South and a 
war in the East. Purveyors of false news would have us believe that the 
country is deeply divided and that a large portion of the population is 
desperate to be rescued by Russia. The truth, however, is exactly the 
opposite.
    NDI's research shows that Ukrainians expect that the next 
generation will be better off than their own with 86 percent saying it 
is ``important'' or ``very important'' that their country become a 
democracy. This is true whether respondents live in the East or the 
West and regardless of political affiliations. Moreover, the research 
and our observations on the ground show that Ukrainians are not 
particularly susceptible to populist appeals or to conspiracy theories, 
particularly those seen as emanating from outside the country. 
Ukrainians feel strongly that they will not give up their right to 
determine their own future--even if doing so would bring peace.
    As these findings show, Ukrainians are virtually united in their 
view that democracy is the best guarantor of their independence and 
sovereignty. To the extent that their country succeeds, it will be 
because ordinary Ukrainians have embraced these goals as their own and 
are taking responsibility for reaching them.
    This positive outlook is not based solely on public attitudes. With 
outside encouragement and support, Ukrainians can point to concrete 
achievements in recent years. These include the emergence of new 
political parties that have national reach and are focused on citizens 
they represent rather than on oligarchs who would finance them. Brought 
together by NDI, in partnership with European institutions, party 
factions in the parliament are overcoming deep fragmentation to agree 
on procedures that will make it easier to build consensus around 
reforms. Local civil society groups are partnering with larger national 
organizations to push for economic and political change, and Ukrainians 
are advocating and voting for more women in elected office.
    At the local level, citizens without prior experience in any kind 
of activism are participating in decision-making in large numbers. One 
quarter has attended community meetings and an additional 29 percent 
are willing to do so. In NDI programs alone, more than 45,000 citizens 
have engaged directly in the national reform process in the past 2 
years and more than 1.3 million have been reached by television. A 
decentralization process will ultimately give Ukrainians more 
opportunities to influence decisions that affect their lives. These are 
the kinds of bottom-up changes that, given time and continued support, 
can put down deep democratic roots.
    In the midst of a massive humanitarian crisis and refugee flight, 
another story of democratic resilience is unfolding in Syria. As the 
Syrian government has lost control of large parts of the country, and 
the war has expanded over the past 6 years, millions of citizens have 
been left bereft of services and governing institutions to maintain 
order and to meet their basic needs. But in liberated territories 
across northern Syria, citizen groups are identifying and prioritizing 
community needs, and local administrative councils, some democratically 
elected, are responding by providing critical services. These 
democratic subcultures can become a powerful model for the country's 
future once the conflict subsides.
    More than two dozen NDI governance advisers are working each day in 
34 of these locations within Syria, helping to advise local citizen 
groups and administrative councils, and bringing them together to solve 
problems. Already, thousands of consultations and training sessions 
have been conducted. More than 500 council members and staff and 7,000 
civic activists, including many young people and women, have been 
engaged in the program. Courageously, these civic groups and councils 
have challenged extremist groups which have sought to establish 
parallel governing structures. ``You may think Syrians are condemned to 
an unpleasant choice between Bashar Al-Assad and the jihadists,'' noted 
one regional news outlet. ``But the real choice being fought out by 
Syrians is between violent authoritarianism on the one hand and 
grassroots democracy on the other.''
    Mr. Chairman, the citizens of our country--from its very founding--
have held the conviction that to ``secure the blessings of liberty for 
ourselves and our country,'' we must establish government that derives 
legitimacy and power from the consent of the people. We received the 
help of others in our founding, and from that point onward have 
embraced the ethic of assisting those around the world who step 
forward--sometimes at great risk in their own countries--to promote, 
establish, and sustain democracy. We as a nation have benefited from 
the peace that global democratic development produces and from the 
economic opportunities that it creates.
    Assisting the advance of democracy has helped war-torn and 
violence-prone states achieve more ``domestic tranquility,'' preventing 
humanitarian disasters, refugee flows and violent extremist 
recruitment. Across the globe, it has helped establish more stable and 
honest frameworks for economic life, opening markets to trade and 
investment. Democratic development has also helped cultivate a 
community of nations that refrain from war with each other and often 
ally themselves with the U.S. on geostrategic concerns. It is our hope 
that this mission remains a priority for both the Congress and the 
administration.

    Senator Rubio. Thank you all for being here, and I will 
begin with a broad question that I get all the time and I would 
love to give you all the opportunity to address it. And here is 
how it goes when I talk about democracy. They will say to me, 
while these are bad people--Saddam Hussein in Iraq and Qaddafi 
in Libya and the like--but in the end they were--they killed 
terrorists and so were we not better off just having these 
autocrats stay in power in these countries than the vacuum and 
the chaos that we now see in Syria and in Iraq and in Libya and 
in other places, in essence, the argument that there are places 
in the world that can never be democratic for whatever reasons 
they point to, cultural or otherwise. Why would we not prefer 
in those parts of the world to have stability? Is that not in 
the national interest of the United States to have strong 
autocratic leaders who can control these elements in those 
societies that could be radicals and the like? Are we--is that 
not more important than promoting democracy, particularly in 
nations who do not have a tradition of Western democratic 
values?
    And I would ask whoever wants to go first, but that is one 
of the fundamental challenges I get every time that I talk 
about promoting democracy.
    Mr. Gershman. Mr. Chairman, if I can maybe first take a 
crack at that. I think we have to understand that authoritarian 
regimes are the main source of instability in the world today. 
They are the ones who are responsible for kleptocracy, for 
corruption, for refugees. They acquire weapons of mass 
destruction against international treaties. Democracies do not 
go to war against each other, and the United States--it is 
never--its opponents are not democracies. Its opponents are 
antidemocratic countries.
    And there are other--authoritarianism is the main source 
also of state failure, and they also--the people, sometimes 
even when they are removed, they try to disrupt democratic 
transitions and make it very, very difficult for transitions to 
succeed.
    So I think that the idea that we can achieve stability 
through somehow partnering with authoritarians is a very 
dangerous hope, especially because they also--the authoritarian 
regimes, in repressing civil society and not giving people a 
voice, they really do leave extremist movements as the only 
alternative. People we support in these societies are 
struggling and they are struggling against great odds, but it 
is often that these autocratic governments prefer to have 
extremist oppositions because they think it legitimizes them in 
the same way that you are hearing this argument, that they are 
the ones that can defeat the terrorists.
    I think it is a very dangerous solution. I think we have 
learned in the past that we cannot rely upon these such regimes 
for stability. And even though democracy is long and hard and 
difficult, if we can build civil societies, strong civil 
societies in these countries even when these countries are 
authoritarian, they will have a much better chance of a stable 
democratic transition when that time comes, as it inevitably 
will because these regimes will not be able to modernize, they 
cannot reform, and ultimately, they will fail.
    Ambassador Green. Thank you, Mr. Chairman. First, I would 
like to associate myself with Carl's remarks. I think he has 
actually captured it very well.
    I guess what I would add to it, as we talked earlier, 
President Reagan gave this speech at Westminster that 
essentially launched all of us. And even in those days, so back 
in the early '80s, there were some who argued that parts of the 
world could not handle democracy, somehow they did not 
culturally have the ability to have democracy and protection of 
human rights. And he very eloquently called that cultural 
condescension or worse. And I agree.
    When we talk about some of these countries, those who say 
that they somehow should not have democracy, it is demeaning. 
We should actually ask the people involved and what it is that 
they want, their own desires, their own aspirations. So much of 
this comes through courageous everyday citizens in the face of 
this brutality and repression that stand up under great peril 
for the cause of democracy.
    Secondly, something that Carl said I think is very, very 
important and that is this myth of stability. Stability is, in 
these cases, often but a veneer because you get pent-up despair 
raging, and you do leave these citizens oftentimes very little 
choice but to resort to some of the extremism that we all point 
to as being so very, very dangerous. And you look at the 
inherent damage that these countries do in the region, whether 
it is giving rise to extremist movements, whether it is causing 
flows of refugees that overwhelm democratic systems around 
them. There is not no cost to the existence of these regimes.
    Mr. Wollack. Mr. Chairman, I would just add a couple 
points. These regimes, so-called stable regimes, seem stable 
until they are unstable. And since they have not created any 
institutions, they have not created a social contract with the 
people, once they fall, they leave in their wake instability 
and conflict.
    It is interesting in the Middle East region, if you look at 
those regimes that are stable and enjoy a degree of legitimacy 
that are confronting many of the challenges that exist in the 
region, those regimes that are either going through a 
democratic transition in the case of Tunisia or engaged in 
reform or liberalization, which is true in Jordan and Morocco, 
Lebanon, perhaps to a lesser degree but still liberalization in 
Algeria, these are the regimes that are better able to confront 
extremism, better able to engage citizens in the political 
process with all the challenges that they are faced. So if you 
look at the region those are the places that are better able to 
handle the refugees, better able to handle conflict, better 
able to handle the expectations of citizens.
    And the answer is reform. The answer is liberalization. The 
answer is not autocracy and repressive regimes and a 
continuation of regimes that do not have a social contract with 
the people.
    Senator Rubio. And I just want one more quick question 
because--Senator Kaine has now arrived and the ranking member 
has questions. So, this is also broad. In order for us as a 
nation to be credible advocates and champions for democracy and 
freedom and liberty, we have to--it begins with our own example 
here at home. In essence, if we were a nation that did not have 
those principles and had not lived them for over two centuries, 
it would be difficult for us to be the champions of that 
abroad.
    And my perspective on it is that a lot of times in the 
coverage of our--in--and I obviously want your perception on 
it, but broader than that, and sometimes in the coverage of our 
modern political process, people talk about several things that 
are going on. Obviously, we had a very divisive election cycle. 
The last 4 weeks have been vibrant in the political debate in 
this country. And I see, despite all of that, institutions that 
are working. I see a United States Senate where the minority 
party has exercised its rights under the rules to force the 
Senate to take all the time available to it for these debates 
on these issues. I have seen the media continue to report as 
they see fit in a free society, irrespective of political 
pressure, criticism on both sides of the equation. I see a 
court system that stepped forward and, despite whether you 
agree with the decision or not, exercised its role.
    I see two people on this panel that--one who ran for Vice 
President, one ran for President and neither one of us won. 
Senator Menendez was too wise to undertake such an endeavor, 
but the--neither one of us went to jail. Both of us are sitting 
here today.
    Is not some of this--despite all this coverage out there 
about the intensity of our political debate in this country, is 
not this something we should celebrate in some ways in 
comparison to what happens in other parts of the world where 
you do not see these things happening for one simple reason, 
and that is the other--the people who are not in power in those 
countries, they do not get to protest, they do not get to come 
back to the Senate and work, they do not get to slow a debate 
up, they do not get to vote on the Senate floor, they do not 
get to go in the press and criticize whoever they want. They 
get to go to jail, they get poisoned, they die, they go into 
exile. Is not this something that in the end should be looked 
at as a strength and not a weakness?
    Mr. Wollack. I think, Mr. Chairman, that former Israeli 
Foreign Minister Abba Eban once said that democracy eventually 
does the right thing but only after exhausting all the 
alternatives. But the point is that democracies have a self-
correcting mechanism because of checks and balances, because of 
citizen engagement, because of different branches of 
government.
    I would only say that, overseas, I think there is a deep 
recognition of the institutions that exist in this country. We 
have problems, we have challenges like everybody else, but in 
many of the countries where we are operating there are those 
who would say we wish we only had the problems that you have 
and we wish we only had the challenges that you have.
    So--but we all recognize that there is today an 
international solidarity network among small-D democrats around 
the world. We have a responsibility to each other to help each 
other, and they recognize, however, that ultimately, systems 
like this, with all their flaws and all their difficulties, is 
better than all the alternatives.
    Ambassador Green. Mr. Chairman, I served as Ambassador to 
Tanzania, and I was there on the election night, the McCain/
Obama election, and we had TVs in many parts of the country so 
that people could watch. They could watch the spectacle of the 
peaceful transfer of power. And we made sure that they all saw 
Senator McCain's concession speech, which was beautiful, 
eloquent, very special, and something that we thought was 
important for our African audiences to see the fact that there 
were not tanks rolling in the streets. And it was something 
that made an important difference.
    Secondly, when we do go around and talk about democracy in 
other countries, I think it is also important that we begin 
with humility. And so when I talk about democracy in other 
countries I say, look, I am not saying that we have all the 
answers. I am saying maybe we have made all the mistakes, and 
maybe you as a friend of our country do not have to make the 
same mistakes that we have made throughout our history. We are 
on a journey just like you. Perhaps we are a little further 
ahead, but we are still on the journey and we have not arrived.
    Mr. Gershman. Let me say this, Mr. Chairman, you know, we 
are living in a different period right now. This is not the 
Cold War anymore; it is a much more complex world. You yourself 
referred to that at the beginning. It is hard for people to 
understand what the threats are that we face. In addition, we 
live in an era now of social media, which is having a very, 
very interesting but disruptive effect. And we know also that 
foreign powers like Russia, as I said in my testimony, are 
using social media in their own way with fake news and fake 
platforms, controls to divide, to demoralize, even to 
destabilize. So we face these new conditions.
    And then you have a further problems of political 
polarization, of dysfunction, and this is reflected in polling 
data, which we published in our Journal of Democracy, which 
showed decline in support for democracy, especially among young 
people. Their parents are more supportive of democracy than 
they are, and their grandparents are even more supportive. So 
there is no memory of the threats that democracy faced in the 
20th century. And you have these problems that are then 
exacerbated.
    And democracy is a messy process. It takes time to get 
things done. Social media has conditioned people to want very 
instant solutions to problems, so there is kind of a 
demoralization that some people have. And I think it is one of 
the greatest challenges that we face is to how to really revive 
democratic conviction. It is not going to be easy. And it is 
not really our mission because the Congress has given us an 
international mission.
    But I believe--and I have said this in many talks that I 
give in the United States--that we need to connect young 
Americans with activists abroad who are giving their lives for 
freedom. They need to know who these people are. They need to 
partner with them. They need to work with them. And we have a 
large, large education job to do.
    And so I agree with you. Yes, there is a lot of success 
that we can point to. We have to make it better, we have to 
solve our problems, and then we have to educate people more 
about the difference between the kind of messy pluralist 
democracy you are talking about and the corrupt and oppressive 
dangers of an authoritarian system.
    Senator Rubio. Thank you. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. Those are some 
thought-provoking questions.
    I will just say to you that I did not run for President 
because I am not as young or handsome as you or as witty and 
charming as Senator Kaine.
    [Laughter.]
    Senator Menendez. So I am fulfilling my role here in the 
Senate----
    Senator Kaine. You just put up two low hurdles.
    [Laughter.]
    Senator Menendez. I do not know about that. You see what I 
mean?
    [Laughter.]
    Senator Menendez. On a serious note, you know, I was 
listening, Ken, to your testimony, as well as all of yours, and 
you said something that, you know, was galvanizing for me a 
moment, that a decade, a decade of democratic recession, what 
do you attribute that to?
    Mr. Wollack. Well, I----
    Senator Menendez. If you put your microphone on so that the 
recorder here can have it.
    Mr. Wollack. Yes, I think that there are two--maybe more 
than two but I will point to two sort of phenomenon. The first 
is that over the past, I think, decade there has been what is 
called authoritarian learning. Autocrats used to be isolated 
from each other, isolated from their people. And there has been 
a learning curve for these autocrats, much more sophisticated. 
Laws that are passed in one country to curtail independent 
activism, let alone opposition activity, a law will suddenly 
appear in another country 3 weeks later. There is now a network 
of autocrats who are learning from each other and now are 
trying to actively seek to curtail the spread of democracy in 
other countries. So that is one.
    Second, I think that new fragile democracies inherit the 
legacies of their nondemocratic predecessors: poverty, disease, 
inaction, lack of political participation, apathy. And when the 
new democratic institutions do not deliver, meet the 
expectations of their citizens, one of two things happen. 
Either they go to the streets, which is not where public policy 
issues should be addressed, or they will vote for a populist 
nondemocratic leader who will turn against civil society and 
the opposition.
    So that is why not only do I think it is important for us 
to support small-D democrats in nondemocratic environments but 
why we have to support new democracies to help them sustain--
build and sustain democratic institutions.
    Bronislaw Geremek, the former foreign minister of Poland, 
said democracy does not necessarily go from triumph to triumph. 
And we have learned that democratic process--progress is not 
linear. And so it requires, I think, sustained engagement by 
the international community broadly and the United States in 
particular.
    Senator Menendez. In that regard, let me ask you, you know, 
as we will face budgetary issues here and the new 
administration and how they think about the appropriate use of 
monies for foreign diplomacy, foreign aid, and democracy and 
human rights development, I want to establish here for us for 
the record part of--as I understand your challenges in 
communicating your successes because, you know, there is a lot 
of effort to be metric-driven. Not all this is so easily 
metric-driven certainly in the short term. But nonetheless is 
that your programs rely on a certain amount of discretion. And 
can you share with the committee in a way that does not 
undermine that but nonetheless what makes your programs 
effective? Why should the United States taxpayer be ultimately 
supporting your initiatives?
    Mr. Gershman. Mr. Chairman, I think the basic feature of 
what it is that we do is this is not top-down. This is bottom-
up. I mean, what has to be recognized is that there are people 
around the world who share our values. They may not be at this 
moment a majority in their countries, but they are fighting for 
our values. And what NED does is demand-driven. It is bottom-
up. It is not we are going in there and we are going to engage 
in social engineering or top-down imposition of democracy. And 
I think that makes it extremely both effective and cost-
effective in terms of the way we do our work.
    And there is a spirit about it--and then we do other things 
in addition to try and provide them with financial help or 
training. We link them together. They learn from each other. We 
engage in actions of international solidarity when people are 
in prison, we--the event we had for Lilian Tintori and the 
others who are imprisoned in Venezuela, and we do that every 
year.
    We have to think of new ways to provide them with support, 
and those are not expensive. And I think it is the spirit of 
the institution that really explains its success and the fact 
that we connect with people on the ground.
    Ambassador Green. If I could add to that, you are correct; 
it is difficult to measure sometimes the metrics of progress 
and success, but there are shining success stories, as we 
mentioned each of us in our opening remarks, in places like 
Tunisia and Burma, The Gambia, Nigeria last year. So there are 
certainly success stories worth holding onto.
    But I would also suggest this country is wonderfully 
generous in terms of its investments overseas dedicated to 
lifting lives and building communities. Global Health, PEPFAR, 
these are tremendous programs. In the long run it is hard for 
me to see any of those investments being truly sustainable 
unless you have in those countries where the investments are 
made citizen-centered, citizen-responsive institutions with the 
capacity to continue the mind to make these sustainable. So I 
think it is also a crucial part of making sure that our other 
investments are well spent and are sustainable and have a 
lasting impact. So I think when we fail to address issues of 
governance and political systems, I think we put our other 
investments are risk quite frankly.
    Senator Menendez. It seems to me that places in the world 
without hope for political participation, economic opportunity, 
or even the ability to provide basic safety for their citizens 
ultimately creates the intersection between the citizen 
security, refugee migration, democracy, and/or the lock of 
democracy and the rule of law, which is incredibly important to 
U.S. companies that ultimately want to go abroad and make 
investments. And when they do, they want a rule of law or a 
system that ultimately will honor their intellectual property 
rights, that will honor their contracts, that at least they 
will have a level playing field. So there is a very tangible 
element to this as well.
    Let me ask you finally two separate things. One is when the 
United States established relations with Burma, the Obama 
administration laid out a set of metrics. It basically said you 
want to have a better standing with the United States, you want 
to have a relationship with the United States, you have to 
release Aung San Suu Kyi, the leader of the opposition. You 
have to hold legislative elections. You have to permit the U.N. 
special rapporteur on human rights to come in, among other 
things. And all of those things eventually developed themselves 
to be a reality.
    I think of Cuba or I think of Malaysia, and should we not 
be looking for the--is that not a template for--we should be 
looking for from these countries?
    Mr. Gershman. I agree completely, and frankly--this is my 
own personal view; I do not, you know, speak for policy--but we 
have not done that with Cuba with the opening--I mean, the real 
critical thing I think more important than the normalization of 
relations between Cuba and the United States is the 
normalization of relations between the Cuban Government and the 
Cuban people. And that has not been done. And we had a lot of 
leverage in that situation. I do not think it was adequately 
used.
    We are not using that leverage today in the Balkan region. 
I have just written something about that. I think it is a bomb 
that is about to explode, and the reason is because we have 
prioritized stability over democratic reform. And it is the 
absence of democratic reform which is giving Russia all the 
opportunities to exploit the divisions in the Balkans between 
the Serbs and Croatians and the Albanians and so forth. But it 
is becoming--this was the dominant issue in the '90s. It could 
come back again. And our analysis is it is because the 
international community has prioritized just stability and not 
reform, and so it is an explosion waiting to happen.
    So, yes, I think we have to use the leverage that we have. 
We do not always have that leverage, but we have to use the 
leverage that we have consistently to try to encourage openings 
in situations.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Rubio. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair, and fascinating 
testimony and questions.
    One of you used the phrase a few minutes ago in response to 
Senator Rubio small-D democracy solidarity network, that there 
is either such a thing or needs to be such a thing. And I have 
also been struck with--I do not know, is it a lack of self-
confidence or something in the democracies of betraying the 
virtues of the model, the authoritarians are nothing if not 
self-confident. They are feeling very, very good right now. And 
they are in all different parts of the globe. And I had not 
thought about this learning curve issue and the sharing of best 
authoritarian practice, but I guess that is part of what is 
going on.
    I mean, what is the status of any democracy solidarity 
network, you know? And on this committee and on the Armed 
Services Committee we deal with military alliances like NATO, 
but that puts the military issue in a prime position, which 
means the democracy promotion is always secondary. In fact, it 
is kind of looked at with suspicion if you lead with military 
first.
    So talk to me about what network there is or what network 
should there be around the world that would link the disparate 
democracies, the mature, the nascent, which are now in all 
parts of the globe. That is great, but what more could we do so 
that that network would be stronger?
    Mr. Gershman. Mr. Chairman, there are a lot of networks, 
and I am sure Ken and Mark will talk about some of them, but 
there is an intergovernmental network, which is called the 
Community of Democracies. It so happens that the U.S. now has 
the presidency of this. It is a network that was created in 
2000 by Madeleine Albright and Bronislaw Geremek of Poland. 
They meet biannually at the ministerial level, and they are 
supposed to meet in the United States in September. The current 
administration has actually inherited the U.S. presidency of 
the Community of Democracies from the previous administration.
    And we have had meetings to prepare for the creation when 
that ministerial meeting takes place of a new global 
association associated with the community of parliamentarians 
where they would organize multi-partisan democracy caucuses in 
their respective parliaments and they would meet within the 
parliamentary network to be an instrument for sharing 
democratic practices and also for global solidarity.
    At the nongovernmental level, the NED has created something 
called the World Movement for Democracy. We had the founding 
assembly of the World Movement for Democracy in India in 
February of 1999. We wanted to do it in a non-Western country 
to really make the point that democracy is not a Western value 
but it is a universal value. At that meeting the great 
philosopher Amartya Sen gave one of the most important 
statements on democracy, democracy as a universal idea at that 
meeting.
    And the World Movement continues to be active. It has 
solidarity networks in different regions. I have just learned 
that the youth network of the World Movement for Democracy in 
Latin America, headed by Rosa Maria Paya, is going to be giving 
its Paya award to the Secretary General of the Organization of 
American States in Cuba so the Secretary General is going to be 
visiting. These are how these networks operate. There are 
networks in Asia, which are engaged on a regional basis but 
then they meet globally, and the next assembly of the World 
Movement will be in Senegal in spring of 2018.
    Ambassador Green. Just very briefly to add to that, 
something that I thought you were going to touch upon, which I 
think is important and we have not really gotten to, when the 
question was asked about why is it that democracy is perceived 
to be in decline, I think one of the factors is that 
authoritarians--first off, they do feel self-confident, but 
they also have tools at their disposal. And disinformation and 
propaganda on an expansionist level that we have not seen for 
many, many years I think is pushing back. And I do think it is 
something that we in the community of democracies--I am not 
talking about the formal organization but the community--really 
have to work hard to push back against because I think it is 
causing tremendous erosion of confidence in democracy in a 
number of places in the world, and I think it is a significant 
problem and challenge for us.
    Mr. Wollack. I will just add to that, Senator Kaine, I 
think when we--the endowment and our institutes began 30-some 
years ago, there were few networks around the world and this 
was an American enterprise for IRI and NDI. We were in a sense 
patterned after the Germany party foundations, which played 
such an important role in Spain and Portugal during the 1970s. 
But today, there has been a sea change in terms of networks. 
You have had traditionally the international networks of 
political parties--social democratic, liberal, Christian 
democratic--that represent 450 parties in 150 countries. You 
have new initiatives like the open government partnership that 
now includes 70 countries and about 50 parliaments and 180 
civic organizations around the world. You have a global network 
of 4 million domestic election monitors around the world that 
help each other. You have intergovernmental organizations now 
that have adopted democratic charters, the most recently being 
the African Union, which is one of the reasons why there was 
regional intervention in the case of The Gambia.
    So these networks now exist. This is no longer an American 
enterprise. This is really an international enterprise. And I 
think, given the challenges that we have all talked about, what 
it--it is a call to action to reinvigorate many of these 
networks to meet some of the challenges that we are facing 
today.
    Senator Kaine. Thank you very much.
    Senator Rubio. Do we have any further questions from our 
members?
    We want to thank all of you for being here today, for your 
statements, for meeting with me earlier in the week, for 
answering our questions.
    We want to move on to our second panel, but we are grateful 
for the work that you are doing and we thank you again for your 
time. And you may receive written questions from members on the 
panel, and I would encourage you to answer those so they can 
become part of our record.
    We will now seat the second panel.
    Senator Rubio. I want to thank the panelists for all being 
here. We are going to start with Mr. Maldonado Machado. I was 
reminded that all three of the Senators here today speak 
Spanish so you might not even need a translator, but for 
purposes of the public record, we are going to have that 
translated. And we thank you for you being here.
    Make sure that the microphone is on for----
    Senator Rubio. [Speaking foreign language.] Can someone--
the microphone?

   STATEMENT OF DANILO ``EL SEXTO'' MALDONADO MACHADO, CUBAN 
                ARTIST AND HUMAN RIGHTS ACTIVIST

    Mr. Machado. Thank you, Marco. Thank you, Bob. Sorry for do 
not speak English. Thank you, everybody.

    [The following statement was delivered through an 
interpreter.]

    Mr. Machado. Thank you for the opportunity to amplify my 
voice to denounce the situation of human rights violations of 
where I come from, Cuba. I am 33 years old and I have already 
served four sentences for the only reason that I have 
criticized the Cuban dictatorship: through my art.
    In Cuba, freedom of speech by artists is prohibited by 
Article 39 of the Constitution. According to this, ``Artistic 
creation is free, provided that its contents is not contrary to 
the revolution.'' This means that the work of artists such as 
myself and my colleagues Gorki Aguila and Tania Bruguera, which 
is critical of the dictator--dictatorial regime of the Castro 
brothers, is illegal in Cuba. For that reason, I served 2 years 
when I was 18, 1 year when I was 24, 10 months at age 31, and 
most recently, 2 months at the age of 33.
    Now, I will refer to the last two occasions in which I was 
in prison. On Christmas Day 2014, as part of a performance, I 
attempted to release two little pigs on the streets of Havana, 
both painted in green, one with the name of Raul and the other 
with the name of Fidel. I called that performance ``Animal Farm 
in memoriam in honor of Gorge Orwell.'' This cost me 10 months 
in prison. During that time, I was tortured physically and 
psychologically by the dictatorship to the point that I 
declared myself on hunger strike and even considered the 
possibility of letting myself die in prison as a result.
    After 10 months and without previous warning, I was 
released and driven to my house from prison. Until today, I 
have not been served any notice of pending criminal charges, 
nor have I been summoned for any type of trial. At that time I 
was released following my protests and my hunger strike in 
prison, and constant denunciations by my mother, my sister, my 
grandmother, friends, and international institutions such as 
the Human Rights Foundation, the Cuban American National 
Foundation, Amnesty International, et cetera.
    These same friends and others came together again this last 
time I was in prison. I was in a maximum-security prison in 
Havana for the simple crime of not having expressed any sadness 
over the death of dictator Fidel Castro. On the night of 
December 26, when his death was announced--Fidel Castro's death 
was announced, I was awakened by calls from friends and my 
sister. I dressed quickly, and when I left my house, I could 
surely perceive fear as the streets became emptier and more 
silent.
    So that day, I began to think over how many atrocities and 
how many crimes against humanity had been committed in more 
than 56 years by brothers Fidel and Raul Castro. So I went out 
to the streets to shout, ``Take the streets, the murderer died, 
the mare died.'' I walked about a mile, took transportation to 
the other side of the city, and walked for a mile for a while 
celebrating until my video that went viral on social media was 
transmitted live as the only celebratory event in the city of 
Havana and on the island.
    In the video, by assuming my identity as a free person in a 
country controlled by a totalitarian dictatorship, I took the 
risky decision of graffitiing the wall of the hotel where Fidel 
Castro's troops were quartered for the first time in Havana 
almost 60 years ago, armed and without a democratic election. I 
did that following the example of the great Vaclav Havel, the 
artist and former President of the Czech Republic, who advised 
all those who, like him, had to live under communist 
totalitarianism, to live in truth, to stop pretending that the 
reality imposed by the regime by force is genuine. Upon the 
death of Fidel Castro, this notion would have meant that I 
should feel sad for the death of the dictator, as was pretended 
by thousands of people for fear of repression on that day.
    That day, after walking through the city, I returned home. 
I was tired and went to bed when I was awakened by a noise at 
my door that made me worry. Then, I saw a patrol car with a 
policeman and two other men in plain clothing, when I saw the 
owner of the house handing them the key to my door. In the 
process I was able to call my fiancee, Alexandra Martinez, and 
I said, ``Call everyone; they are taking me prisoner.'' The two 
of them threw themselves at me without even identifying 
themselves verbally, and I received only insults and blows from 
these characters because, according to them, I had disrespected 
Fidel Castro.
    And so I was taken to the police unit of La Lisa as they 
continued to hit me even after I got off, which did not stop my 
cries of ``Murderers, yes the mare died, and good thing.'' When 
in the unit, I asked: Do you know me? Have I done something to 
you? If I have not committed any crime, why do you beat me for 
my way of thinking? To which they only claimed, ``The laws 
support us.''
    This time the cost was 55 days in prison. At this time, I 
once again suffered physical and psychological torture, 
preventing me from seeing my family and my fiancee. I was 
transferred to six consecutive detention centers, including the 
high-security prison Combinado del Este. Also at this time I 
was deprived of the right to be represented by a lawyer since 
my pro bono international attorney, Kimberly Motley, who had 
tried to visit me in Havana, was arrested and immediately 
deported from Cuba.
    Combinado del Este is a horrendous high-security prison 
where only the most dangerous prisoners are sent. The roofs 
were rife with leaks, the 6 by 4 square meter cells were 
overcrowded for 36 people and bunkbeds for three were arranged 
in order to avoid the leaks. During the day, the lights were 
off and although it was daytime, the sunlight did not penetrate 
the bars. On one occasion my jailers tried to terrorize me by 
threatening that at any time they could take me to the yard to 
execute me by firing squad. I was very worried because--by this 
because I knew that could easily happen given the record of the 
hundreds if not thousands of political prisoners they have 
executed by the dictatorship.
    I had to undergo all this abuse and humiliation for not 
shedding tears and for graffitiing ``He's gone'' when an 
assassin died, one who, with his brother, the current president 
of Cuba Raul Castro, never allowed a different party than the 
one that he created at gunpoint.
    The Castro brothers and their family own all the 
newspapers, radio, TV, and the only telephone company in Cuba, 
which is the only one allowed to supply internet. These men 
have remained in power during almost 60 years not only giving 
orders to massacre Cubans such as those aboard the tugboat 
Trece de Marzo but also various attempts against Oswaldo Paya 
Sardinas' life and his eventual murder, as well as that of 
Laura Pollan. The Castros not only divided all Cubans but also 
made exiles of them, many of whom are in this country.
    The Castros contributed high numbers of mercenaries and 
arms to the wars of Angola, Ethiopia, under the command of the 
Soviet Army, the FARC in Colombia, and guerrillas in Venezuela 
in the '60s and in last two decades have support the 
dictatorial Chavista regime, which today has plunged their 
people into hunger and oppression.
    I want to close my presentation requesting two things to 
the people and the Government of the United States. First, we 
request solidarity for the cause of democracy in Cuba given 
that we have suffered a regime that does not allow democratic 
elections for almost 60 years. The world should give us 
solidarity and should ask Raul Castro for a plebiscite and 
democratic elections in Cuba. And secondly, I ask the people 
and Government of the United States to pressure Raul Castro's 
regime to release the thousands of political prisoners existing 
in my country.
    Due to the totalitarian system we Cubans live under, at 
least 85 percent of the present prison population would be 
considered innocent in any democratic country and would have 
never been sent to prison. We Cubans on the island are hostage 
of the Castro brothers' regime and the life of all Cubans, 
particularly artists, opponents, and dissidents, are under 
permanent danger at the hands of the repressive dictatorship. 
Once again, we need the solidarity of the United States and the 
support of all people in the world.
    [The prepared statement of Mr. Machado follows:]

      Prepared Statement of Danilo ``El Sexto'' Maldonado Machado

    Thank you for the opportunity to amplify my voice to denounce the 
situation of human rights violations of where I come from, Cuba. I am 
33 years old and have already served four sentences for the only reason 
that I have criticized the Cuban dictatorship through my art.
    In Cuba, freedom of speech by artists is prohibited by Article 39 
of the Constitution. According to this, ``artistic creation is free 
provided that its contents is not contrary to the Revolution.''
    This means that the work of artists such as myself and my 
colleagues Gorki Aguila and Tania Bruguera, which is critical of the 
dictatory regime of the Castro brothers, is illegal in Cuba.
    For that reason I served 2 years when I was 18; 1 year when I was 
24; 10 months at age 31 and most recently 2 months at the age of 33.
    Now I'll refer to the last two occasions in which I was in prison. 
On Christmas Day 2014, as part of a performance, I attempted to release 
two little pigs on the streets of Havana, both painted in green, one 
with the name of Raul and the other with the name of Fidel. I called 
that performance ``Animal Farm in memoriam'' in honor of Gorge Orwell.
    This cost me 10 months in prison. During that time I was tortured 
physically and psychologically by the dictatorship to the point that I 
declared myself on a hunger strike and even considered the possibility 
of letting myself die in prison as a result.
    After 10 months without previous warning, I was released and driven 
to my house from prison. Until today I have not been served any notice 
of pending criminal charges nor have I been summoned for any type of 
trial.
    At that time I was released following my protests and my hunger 
strike in prison, and constant protests by my mother, my sister, my 
grandmother, friends, and international institutions such as the Human 
Rights Foundation, the Cuban American National Foundation, Amnesty 
International, etc . . .
    These same friends and others came together again this last time I 
was in prison. I was in a maximum security prison in Havana for the 
simple crime of not having expressed any ``sadness'' over the death of 
dictator Fidel Castro.
    On the night of December 26, when his death was announced, I was 
awakened by calls from friends and my sister.
    I dressed quickly and when I left my house I could surely perceive 
fear as the streets became emptier and more silent.
    That day I began to think over how many atrocities and how many 
crimes against humanity had been committed in more than 56 years by 
brothers Fidel and Raul Castro.
    So I went out to the streets to shout ``Take the streets, the 
murderer died, the mare died.'' I walked about a mile, took 
transportation to the other side of the city, and walked for a while 
celebrating until my video, that went viral on social media, was 
transmitted live as the only celebratory event in the city of Havana, 
and on the island.
    In the video, by assuming my identity as a free person in a country 
controlled by a totalitarian dictatorship, I took the risky decision of 
graffitiing the wall of the hotel where Fidel Castro's troops were 
quartered for the first time in Havana almost 60 years ago, armed and a 
without democratic election.
    I did that following the example of the great Vaclav Havel, the 
artist and former president of the Czech Republic, who advised all 
those who, like him, had to live under communist totalitarianism, to 
LIVE IN TRUTH. To stop pretending that the reality imposed by the 
regime by force is genuine. Upon the death of Fidel Castro, this notion 
would have meant that I should feel sad for the death of the dictator, 
as was pretended by thousands of people for fear of repression on that 
day.
    That day, after walking through the city, I returned home. I was 
tired and went to bed when I was awakened by a noise at my door that 
made me worry. Then I saw a patrol car with a policeman and two other 
men in plain clothing, when I saw the owner of the house handing them 
the key to my door.
    In the process I was able to call my fiancee, Alexandra Martinez, 
and I said, ``Call everyone, they are taking me prisoner.'' The two of 
them threw themselves at me without even identifying themselves 
verbally and I received only insults and blows from these characters, 
because according to them, I had disrespected Fidel Castro.
    And so I was taken to the police unit of La Lisa as they continued 
to hit me even after I got off, which did not stop my cries of 
``Murderers, yes the mare died, and good thing.'' When in the unit I 
asked: Do you know me? Have I done something to you? If I have not 
committed any crime, why do you beat me for my way of thinking? To 
which they only claimed ``the laws support us.''
    This time the cost was 55 days in prison. At this time, I once 
again suffered physical and psychological torture, preventing me from 
seeing my family and my fiancee. I was transferred to 6 consecutive 
detention centers, including the high security prison ``Combinado del 
Este.''
    Also at this time I was deprived of the right to be represented by 
a lawyer since my probono international attorney, Kimberly Motley, who 
had tried to visit me in Havana was arrested and immediately deported 
from Cuba.
    Combinado del Este is a horrendous high security prison where only 
the most dangerous prisoners are sent. The roofs were rife with leaks, 
the 6 by 4 square meter cells were overcrowded for 36 people and bunk 
beds for 3, arranged in order to avoid the leaks. During the day the 
lights were off and although it was daytime the sunlight did not 
penetrate the bars.
    On several occasions my jailers tried to terrorize me my 
threatening that at any time they could take me to the yard to execute 
me by firing squad.
    I was very worried by this because I knew that could easily happen 
given the record of the hundreds if not thousands of political 
prisoners executed by the dictatorship.
    I had to undergo all this abuse and humiliation for not shedding 
tears and for graffitiing ``He's Gone'' when an assassin died, one who 
with his brother, the current president of Cuba, Raul Castro, never 
allowed a different party than the one he created at gun point.
    The Castro brothers and their family own the three newspapers, 
radio, TV, the only telephone company in Cuba which is the only one 
allowed to supply internet.
    These men have remained in power during almost 60 years not only 
giving order to massacre Cubans such as those aboard Tugboat 13 de 
Marzo but also various attempts against Oswaldo Paya Sardinas' life and 
his eventual murder, as well as that of Laura Pollan. The Castros not 
only divided all Cubans, but also made exiles of them, many of whom are 
in this country.
    These characters contributed high numbers of mercenaries and arms, 
to the wars of Angola, Ethiopia, under the command of the Russian Army, 
the FARC in Colombia, and guerrillas in Venezuela in the 60s and in 
last two decades have supported the dictatorial Chavista regime, which 
today have plunged their people into hunger and oppression.
    I want to close my presentation requesting two things to the people 
and the government of the United States. First, we request solidarity 
for the cause of democracy in Cuba, given that we have suffered a 
regime that does not allow democratic elections for almost 60 years. 
The world should give us solidarity and should ask Raul Castro for a 
plebiscite and democratic elections in Cuba.
    And secondly, I ask the people and the government of the United 
States, to pressure Raul Castro's regime to release the thousands of 
political prisoners existent in my country. Due to the totalitarian 
system we Cubans live under, at least 85 percent of the present prison 
population would be considered innocent in any democratic country and 
would have never been sent to prison.
    All Cubans are hostage of the Castro brothers' regime and the life 
of all Cubans, particularly artists, opponents, and dissidents, are 
under permanent danger at the hands of the repressive dictatorship.
    Once again we need the solidarity of the United States and the 
support of all people of the world.

    Senator Rubio. Thank you, Mr. Machado.
    Dr. Eldosari.

  STATEMENT OF DR. HALAH ELDOSARI, VISITING SCHOLAR AND HUMAN 
                RIGHTS ACTIVIST, WASHINGTON, DC

    Dr. Eldosari. Thank you. Thank you, Chairman Rubio and 
Ranking Member Menendez----
    Senator Rubio. Can you turn on the microphone? I am sorry.
    Dr. Eldosari. Sorry.
    Senator Rubio. Thank you.
    Dr. Eldosari. Thank you for the kind invitation. So my name 
is Dr. Halah Eldosari. I am a visiting scholar at the Arab Gulf 
States Institute in Washington, DC. My research and writing 
examines gender, health, and laws in Saudi Arabia and the Arab 
Gulf States. My focus is on violence against women and advocacy 
for women's rights. My statement today aims to inform on the 
restrictions imposed on the citizens' ability to promote their 
rights in Saudi Arabia.
    Saudi Arabia is an absolute monarchy where political 
parties, unions, independent civil society organizations are 
prohibited by law. There is no penal code, and judges liberally 
rely on personal judgment to decide on cases based on the 
concept of ``ta'azir,'' which is an Islamic law concept that 
allows an individual judge to decide on a suitable punishment 
at his own whim when no clear description of the act or the 
punishment is specified in Islamic scripture. It is not 
uncommon to find irrelevant historic Islamic incidents or 
quotations taken out of context to justify irrational 
punishments against the critics or activists.
    For instance, in the case of Ala'a Brinji, he is an 
imprisoned Saudi journalist. His sentencing document lists some 
of those historical sayings to justify sentencing him for 7 
years in prison, followed by an equal term of travel ban merely 
for tweets in which he called for religious freedom, revocation 
of blasphemy laws, support for other human rights defenders and 
support for women driving.
    The unchecked authority of the King is enforced by law and 
the appointed religious clerics. In the last few years, several 
laws and regulations were issued to classify acts of promoting 
human rights, such as questioning public policies or religious 
norms, as acts of terror or as cybercrimes.
    In the last few years, I came across numerous statements 
filed by the prosecutors against peaceful critics, activists, 
and writers which described their human rights advocacy as 
``disobedience to the ruler,'' ``inciting the public against 
the ruler,'' or ``disrupting the public stability.'' For 
instance, all the members of the Saudi Civil and Political 
Rights Association, along with other reputable activists, have 
been sentenced to lengthy prison terms under such charges for 
promoting a constitutional monarchy, religious tolerance, and 
the rule of law. This is particularly concerning as it curtails 
citizens' ability to comment on public policies such as the 
role of Saudi Arabia in regional conflicts or the recent impact 
of the economic reforms. Several writers and economic analysts 
were recently silenced for critiquing the economic reforms' 
impacts.
    In 2013 I submitted a report on the situation of women's 
rights in Saudi Arabia to the U.N. Human Rights Council listing 
recommendations to reform the nationality act, the political 
and economic participation of women, revoking the ban on women 
driving, implementing measures to protect women's rights and 
women against violence, abolishing the male guardianship 
system. And none of these recommendations were implemented.
    In addition, I have joined women activists in 2013 in a 
campaign to revoke the driving ban by sharing videos of 
ourselves driving inside Saudi Arabia on social media. The 
campaign brought global attention, but the government responded 
negatively. Women activists were detained, defamed in local 
newspapers, had their cars confiscated, and two women were 
imprisoned for 72 days and then placed under travel bans for 
several months merely for requesting to cross the United Arab 
Emirates-Saudi border in their cars.
    Last August, I had written a petition to the King, which 
was signed by 15,000 Saudi men and women to request abolishing 
the guardianship system from the state's regulation. An 
activist friend in Riyadh delivered it to the King. The male 
guardianship system is made of policies and customary norms in 
which officials require women to obtain the approval of a male 
relative--usually a husband or a father or even a son--to 
access education, work, travel, marriage, or get a release from 
prison. It limits women's autonomy and safety from abusive 
guardians.
    I personally have written several letters to support Saudi 
women seeking asylum in other countries to escape their 
guardian's abuse. Last year, I lost track of three Saudi 
sisters whom I have helped who fled the country and stayed in 
Malaysia to escape the sexual abuse of their guardian and who 
were forcibly returned by a private Saudi force to Riyadh in a 
case similar to that of young man who fled religious 
persecution to Malaysia before forcibly returned.
    The World Bank ranked Saudi Arabia as the highest country 
in the legal restrictions imposed on women's economic 
participation among 170 economies. None of the objectives 
planned for the Saudi vision can be reached without women's 
full participation in the workforce. Saudi women have created a 
daily hashtag on Twitter to end the guardianship system, and 
today, it reached its 225th day without a response from the 
state. Instead, a young woman who supported the campaign was 
arrested for months and she has published a public apology for 
participating in the campaign in the local newspaper upon her 
release. Local newspapers also reported the sentencing of a 
Saudi man to 1 year in prison and a penalty of $8,000 for 
promoting the campaign by placing posters on local mosques.
    In supporting the civil society in Saudi Arabia, several 
approaches were successful. The discussion of punishments on 
activists of top European officials with the King were very 
useful for our activists. Media coverage of Saudi affairs 
informed the public and compensated for the censored media 
inside our country. Most importantly, I find the vocal and 
material support for international community for prisoners of 
conscience as key for the crucial role they play in advancing 
political and economic reforms, accountability, gender 
equality, and religious tolerance.
    Currently, Saudi Arabia leaders are keen to secure economic 
and defense alliances with the U.S., and this represents an 
ideal opportunity to promote sustainable political and civil 
reforms contrary to the notion that it may alienate U.S. 
allies.
    And thank you for the opportunity to include my perspective 
on this issue.
    [The prepared statement of Dr. Eldosari follows:]

                Prepared Statement of Dr. Halah Eldosari

    Dear Chairman Rubio and Ranking Member Menendez, thank you for your 
kind invitation. My name is Dr. Hala Aldosari, I'm a visiting scholar 
at the Arab Gulf States Institute in Washington DC. My research and 
writing examines gender, health and laws in Saudi Arabia and the Arab 
Gulf States with a focuses on violence against women. I'm an advocate 
for women and human rights in Saudi Arabia and have participated in a 
range of activities, including, campaigning, researching, lecturing, 
writing and public speaking on various platforms. I created an online 
website as a resource on women's rights and violence against women. My 
statement today is an attempt to inform the subcommittee on the 
restrictions of citizens' ability to promote their rights in Saudi 
Arabia.
    Saudi Arabia is an absolute monarchy where political parties, 
unions, independent civil society organizations are prohibited by law. 
There is no penal code and judges liberally rely on personal judgment 
on deciding cases based on the concept of ``ta'azir'', an Islamic law 
concept that allows an individual judge to decide on a suitable 
punishment at his own whim when no clear description of the act or the 
punishment is specified in Islamic scripture. Activists and concerned 
citizens struggle to provide a legal basis for their advocacy in the 
current legal system. It is not uncommon to find irrelevant historical 
Islamic incidents or quotations, taken out of context, in the 
statements of the prosecution or the decisions of the judges to justify 
irrational punishments against critics or activists. In the case of 
Ala'a Brinji, an imprisoned Saudi journalist, his sentencing document 
lists some of those historical sayings to justify sentencing him for 7 
years in prison followed by a travel ban of equal duration merely for 
tweets in which he called for religious freedom, revocation of 
blasphemy laws, support for other human rights defenders and support 
for women driving. When the international community raises concern over 
the irrationality and arbitrary nature of the rulings against activists 
and critics, the authorities argue that they followed the due process, 
but fail to mention the false concept of justice employed to justify 
these rulings, even under Islamic principles.
    Saudi Arabia's political system places the King as the ultimate 
guardian in which unconditional obedience is expected from citizens. 
The unchecked authority of the King is enforced by law and the 
appointed religious clerics. In the last few years, several laws and 
regulations were issued to classify acts of promoting human rights, 
such as questioning public policies or religious norms, as acts of 
terrorism or as cybercrimes. In the last few years, I came across 
numerous statements filed by prosecutors against peaceful critics, 
activists and writers which described their human rights advocacy as 
``disobedience to the ruler'', ``inciting the public against the 
ruler'' or ``disrupting the public stability''. None of these acts 
resemble recognizable crimes, yet Saudi authorities have used them to 
lock up peaceful activists for up to 15 years. All members of the Saudi 
Civil and Political Rights Association, along with other reputable 
activists, have been sentenced to lengthy prison terms under such 
charges, including promoting a constitutional monarchy, religious 
tolerance and the rule of law. This is particularly concerning because 
it curtails citizen's ability to comment on public policies affecting 
every citizen, such as the role of Saudi Arabia in regional conflicts 
or the recent impacts of the economic reforms. Several writers and 
economic analysts were banned from travel, repeatedly brought to 
investigation, suspended from writing or from their jobs, or sentenced 
to prison terms for expressing concerns over the consequences of 
political or economic decisions. The result is that citizens' 
engagement in the civil and political life of their country has been 
seriously compromised by fear of government reprisal and repression.
    In 2013, I submitted a report on the situation of women's rights in 
Saudi Arabia to the U.N. Human Rights Council. The report listed 
recommendations, made by Saudi activists in the past, such as reforming 
the nationality act, improving the political and economic participation 
of women, revoking the ban on women driving, implementing measures to 
protect women against violence and abolishing the male-guardianship 
system that controls women's lives.
    However, none of these recommendations were implemented. In 
addition, I've joined women activists in 2013 in a campaign to revoke 
the driving ban by sharing videos of ourselves driving inside Saudi 
Arabia on social media. The campaign brought global attention, but the 
government responded negatively. Women activists were detained, defamed 
in local newspapers, had their cars confiscated and two women were 
imprisoned for 72 days and then placed under travel bans for several 
months merely for requesting to cross the UAE-Saudi border in their 
cars. I worked, along other women activists, with Human Rights Watch on 
updating their 2008 report on the male-guardianship system. This is a 
system of policies and customary norms in which officials require women 
to obtain the approval of a male relative, usually a husband or a 
father, to access education, work, travel, marriage or get a release 
from prison. The system limits women's autonomy when their guardians 
refuse to provide the required permission or when guardians abuse their 
power over women for personal benefits, such as in forced/ early 
marriages for dowries or in taking the woman's salary to allow her to 
work. Women who live with abusive guardians are at a particular risk 
because of the vast authority granted to guardians on many domains in a 
woman's lives. I have personally written several letters to support 
Saudi women seeking asylum in other countries to escape their guardians 
abuse. Last year, I lost track of three Saudi sisters who fled the 
country to Malaysia to escape the sexual abuse of their guardian and 
who were forcibly returned by a private Saudi force to Riyadh, in a 
case similar to that of young man who fled religious persecution to 
Malaysia and was forcibly returned to Riyadh. In a recent report by the 
World Bank, the number of legal restrictions on women in Saudi Arabia 
is the highest among 170 economies. It is therefore not surprising that 
women's unemployment in Saudi Arabia is the lowest globally and the 
recent economic proposals to transform the Saudi economy such as Vision 
2030 or the National Transformation Plan have not revoked any of these 
restrictions or barriers. The household income would be drastically 
reduced as a result of the enforced austerity measures, and will not 
likely to be avoided by 2020 without women's full participation in the 
work force. Last August, I have written a petition to the king which 
was signed by 15000 Saudi men and women to request abolishing the 
guardianship system from the state's regulations, and an activist in 
Riyadh delivered it to the King. Saudi women have created a daily 
hashtag on twitter to end the male guardianship system listing personal 
narratives and refuting the religious basis for it based on the 
writings of reputable Islamic figures. The hashtag reached its 225th 
day today without a response form the state. Instead, a young woman who 
supported the campaign was arrested for months and was likely forced to 
publish a public apology from participation in the local newspaper upon 
her release. Local newspapers also reported the sentencing of a Saudi 
man to 1 year in prison and a penalty of $8000 for promoting the 
campaign by placing posters on local mosques.
    In supporting the civil society in Saudi Arabia, I found that 
several approaches were successful. First, we have seen that the 
interventions of top officials from EU countries with the King as 
successful in reducing some of the punishments of activists. In 
addition, media coverage and analysis of Saudi issues raised awareness 
among the Saudi public on key issues which were largely uncovered in 
the local media. Most importunely, I find the vocal and material 
support of the international community for the prisoners of conscience 
is key because of the crucial role they play in advancing local 
discourse on political and economic reforms, accountability, gender 
equality and religious tolerance. I would also like to hint that 
contrary to the common notion that public statements may alienate U.S. 
allies, I find that the keen and active interest of Saudi Arabia 
leaders in securing economic and defense alliances can be ideal 
opportunities to promote human rights reforms. I thank you for the 
opportunity to include my perspectives as part of the ongoing discourse 
on promoting human rights.

    Senator Rubio. Thank you so much.
    Mr. Kasparov.

STATEMENT OF GARRY KASPAROV, CHAIRMAN, HUMAN RIGHTS FOUNDATION, 
                          NEW YORK, NY

    Mr. Kasparov. Thank you very much, Mr. Chairman, for 
inviting me here today. Thank you very much, Ranking Member and 
members, for your nice words about my work. It is especially 
nice to hear such kind words compared to one U.S. Congressman 
who has recently said that Putin is not so bad because Garry 
Kasparov is still alive.
    And I am also glad to be here in the Senate on the record 
because it seems I am one of the few prominent Russians who is 
not in contact with the White House.
    [Laughter.]
    Mr. Kasparov. As one of the countless millions of people 
who were freed or protected from totalitarianism by the United 
States of America, it is easy for me to talk about the past, to 
talk about the belief of the American people and their leaders 
that this country was exceptional, and had special 
responsibilities to match its tremendous power, that a nation 
founded on freedom was bound to defend freedom everywhere.
    I could talk about the bipartisan legacy of this most 
American principle, from the Founding Fathers, to Democrats 
like Harry Truman, to Republicans like Ronald Reagan. I could 
talk about how the American people used to care deeply about 
human rights and dissidents in far-off places, and how this is 
what made America a beacon of hope, a shining city on a hill. 
America led by example and set a high standard, a standard that 
exposed the hypocrisy and cruelty of dictatorships around the 
world.
    But there is no time for nostalgia. Since the fall of the 
Berlin Wall, the collapse of the Soviet Union, and the end of 
the Cold War, Americans and America have retreated from those 
principles, and the world has become much worse off as a 
result. American skepticism about America's role in the world 
deepened in the long, painful wars in Afghanistan and Iraq and 
their aftermaths. Instead of applying the lessons learned about 
how to do better, lessons about faulty intelligence and working 
with native populations, the main outcome was to stop trying.
    This result has been a tragedy for the billions of people 
still living under authoritarian regimes around the world, and 
it is based on faulty analysis. You can never guarantee a 
positive outcome, not in chess, not in war, and certainly not 
in politics. The best you can do is to do what you know is 
right and to try your best.
    I speak from experience when I say that the citizens of 
unfree states do not expect guarantees. They want a reason to 
hope and a fighting chance. People living under dictatorships 
want the opportunity for freedom, the opportunity to live in 
peace and to follow their dreams. From the Iraq War to the Arab 
Spring to the current battles for liberty from Venezuela to 
Eastern Ukraine, people are fighting for that opportunity, 
giving up their lives for freedom. The United States must not 
abandon them.
    The United States and the rest of the free world has an 
unprecedented advantage in economic and military strength 
today. What is lacking is the will, the will to make the case 
to the American people, the will to take risks and invest in 
the long-term security of the country, and the world. This will 
require investment in aid, in education, in security that allow 
countries to attain the stability their people so badly need. 
Such investment is far more moral and far cheaper than the 
cycle of terror, war, refugees, and military intervention that 
results when America leaves a vacuum of power. The best way to 
help refugees is to prevent them from becoming refugees in the 
first place.
    The Soviet Union was an existential threat, and this 
focused the attention of the world and the American people. The 
existential threat today is not found on a map, but it is very 
real. The forces of the past are making steady progress against 
the modern world order. Terrorist movements in the Middle East, 
extremist parties across Europe, a paranoid tyrant in North 
Korea threatening nuclear blackmail, and, at the center of the 
web, an aggressive KGB dictator in Russia. They all want to 
turn the world back to a dark past because their survival is 
threatened by the values of the free world, epitomized by the 
United States. And they are thriving as the United States has 
retreated. The global freedom index has declined for 10 
consecutive years. No one likes to talk about the United States 
as a global policeman, but this is what happens when there is 
no cop on the beat.
    American leadership begins at home, right here. America 
cannot lead the world on democracy and human rights if there is 
no unity on the meaning and importance of these things. 
Leadership is required to make that case clearly and 
powerfully. Right now, Americans are engaged in politics at a 
level not seen in decades. It is an opportunity for them to 
rediscover that making America great begins with believing 
America can be great.
    The Cold War was won on American values that were shared by 
both parties and nearly every American. Institutions that were 
created by a Democrat, Truman, were triumphant 40 years later 
thanks to the courage of a Republican, Reagan. This bipartisan 
consistency created the decades of strategic stability that is 
the great strength of democracies.
    Strong institutions that outlast politicians allow for 
long-range planning. In contrast, dictators can operate only 
tactically, not strategically, because they are not constrained 
by the balance of powers, but they cannot afford to think 
beyond their own survival. This is why a dictator like Putin 
has an advantage in chaos, the ability to move quickly. This 
can only be met by strategy, by long-term goals that are based 
on shared values, not on polls and cable news.
    The fear of making things worse has paralyzed the United 
States from trying to make things better. There will always be 
setbacks, but the United States cannot quit. The spread of 
democracy is the only proven remedy for nearly every crisis 
that plagues the world today. War, famine, poverty, terrorism, 
all are generated and exacerbated by authoritarian regimes. A 
policy of America first inevitably puts American security last.
    Global American leadership is required because there is no 
one else, and because it is good for America. There is no 
weapon, there is no wall that is more powerful for security 
than America being envied, imitated, and admired around the 
world, admired not for being perfect, but for having the 
exceptional courage to always try to be better.
    Thank you.
    [The prepared statement of Mr. Kasparov follows:]

                  Prepared Statement of Garry Kasparov

    My thanks to Chairman Corker and to Senator Rubio for inviting me 
to be here today.
    As one of the countless millions of people who were freed or 
protected from totalitarianism by the United States of America, it is 
easy for me to talk about the past. To talk about the belief of the 
American people and their leaders that this country was exceptional, 
and had special responsibilities to match its tremendous power. That a 
nation founded on freedom was bound to defend freedom everywhere. I 
could talk about the bipartisan legacy of this most American principle, 
from the Founding Fathers, to Democrats like Harry Truman, to 
Republicans like Ronald Reagan. I could talk about how the American 
people used to care deeply about human rights and dissidents in far-off 
places, and how this is what made America a beacon of hope, a shining 
city on a hill. America led by example and set a high standard, a 
standard that exposed the hypocrisy and cruelty of dictatorships around 
the world.
    But there is no time for nostalgia. Since the fall of the Berlin 
Wall, the collapse of the Soviet Union, and the end of the Cold War, 
Americans, and America, have retreated from those principles, and the 
world has become much worse off as a result. American skepticism about 
America's role in the world deepened in the long, painful wars in 
Afghanistan and Iraq, and their aftermaths. Instead of applying the 
lessons learned about how to do better, lessons about faulty 
intelligence and working with native populations, the main outcome was 
to stop trying.
    This result has been a tragedy for the billions of people still 
living under authoritarian regimes around the world, and it is based on 
faulty analysis. You can never guarantee a positive outcome--not in 
chess, not in war, and certainly not in politics. The best you can do 
is to do what you know is right and to try your best. I speak from 
experience when I say that the citizens of unfree states do not expect 
guarantees. They want a reason to hope and a fighting chance. People 
living under dictatorships want the opportunity for freedom, the 
opportunity to live in peace and to follow their dreams. From the Iraq 
War to the Arab Spring to the current battles for liberty from 
Venezuela to Eastern Ukraine, people are fighting for that opportunity, 
giving up their lives for freedom. The United States must not abandon 
them.
    The United States and the rest of the free world has an 
unprecedented advantage in economic and military strength today. What 
is lacking is the will. The will to make the case to the American 
people, the will to take risks and invest in the long-term security of 
the country, and the world. This will require investments in aid, in 
education, in security that allow countries to attain the stability 
their people so badly need. Such investment is far more moral and far 
cheaper than the cycle of terror, war, refugees, and military 
intervention that results when America leaves a vacuum of power. The 
best way to help refugees is to prevent them from becoming refugees in 
the first place.
    The Soviet Union was an existential threat, and this focused the 
attention of the world, and the American people. There existential 
threat today is not found on a map, but it is very real. The forces of 
the past are making steady progress against the modern world order. 
Terrorist movements in the Middle East, extremist parties across 
Europe, a paranoid tyrant in North Korea threatening nuclear blackmail, 
and, at the center of the web, an aggressive KGB dictator in Russia. 
They all want to turn the world back to a dark past because their 
survival is threatened by the values of the free world, epitomized by 
the United States. And they are thriving as the U.S. has retreated. The 
global freedom index has declined for 10 consecutive years. No one like 
to talk about the United States as a global policeman, but this is what 
happens when there is no cop on the beat.
    American leadership begins at home, right here. America cannot lead 
the world on democracy and human rights if there is no unity on the 
meaning and importance of these things. Leadership is required to make 
that case clearly and powerfully. Right now, Americans are engaged in 
politics at a level not seen in decades. It is an opportunity for them 
to rediscover that making America great begins with believing America 
can be great.
    The Cold War was won on American values that were shared by both 
parties and nearly every American. Institutions that were created by a 
Democrat, Truman, were triumphant 40 years later thanks to the courage 
of a Republican, Reagan. This bipartisan consistency created the 
decades of strategic stability that is the great strength of 
democracies. Strong institutions that outlast politicians allow for 
long-range planning. In contrast, dictators can operate only 
tactically, not strategically, because they are not constrained by the 
balance of powers, but cannot afford to think beyond their own 
survival. This is why a dictator like Putin has an advantage in chaos, 
the ability to move quickly. This can only be met by strategy, by long-
term goals that are based on shared values, not on polls and cable 
news.
    The fear of making things worse has paralyzed the United States 
from trying to make things better. There will always be setbacks, but 
the United States cannot quit. The spread of democracy is the only 
proven remedy for nearly every crisis that plagues the world today. 
War, famine, poverty, terrorism-all are generated and exacerbated by 
authoritarian regimes. A policy of America First inevitably puts 
American security last.
    American leadership is required because there is no one else, and 
because it is good for America. There is no weapon or wall that is more 
powerful for security than America being envied, imitated, and admired 
around the world. Admired not for being perfect, but for having the 
exceptional courage to always try to be better. Thank you.

    Senator Rubio. Thank you for being here. I am going to 
allow--Senator Kaine, do you need to--okay.
    Senator Menendez.
    Senator Menendez. Well, thank you all for your incredible 
testimony. And I am just going to take a moment, Mr. Chairman, 
and I will excuse myself with our recorder here. I will give 
you the synthesis of what I said but I do not want to proceed 
without saying this to Mr. Maldonado Machado.
    [Speaking foreign language.]
    Mr. Machado. Gracias.
    Senator Menendez. [Speaking foreign language.]
    So I appreciate your testimony, and I wish that more of our 
colleagues were here to be honest with you, because even those 
who somehow have this romanticized idea of what the Castros are 
all about, even those who applaud the engagement that we have 
had with the Castro regime, what bothers me is not that. That 
is America. It is a different point of view. What bothers me is 
that they never talk about the Danilos Machados of the world. 
They do not talk about the Marta Beatriz Roques. They do not 
talk about Berta Soler and a large number of individuals who 
are the Vaclav Havels, the Lech Walesas, the Aleksandr 
Solzhenitsyns of Cuba.
    And for some reason the world is focused on human rights 
and democracy in other places but somehow cannot rivet its 
attention on the very abuses that they feel so compelled to say 
from the highest mountaintop about any other place in the 
world, but when it comes to Cuba, there is this indifference.
    And so while I disagree with my colleagues on some of the 
policy views, I--at least I would hope that they would be 
voices, as they are so eloquently in other parts of the world, 
to speak about those who struggled inside of Cuba, as you do.
    I heard your petition, but I am wondering in what concrete 
way would you want to see the United States Government act to 
help you, as an artisan, as a citizen be free to perform your 
art, to say what you wish, to have your colleagues be able to 
do the same? What would you want us to actually--if you could, 
if you could say to us do this, what is it? What would it be?
    Mr. Machado. First of all, I want to thank you. You can 
help us the way you are doing now. But if these people have 
been violating human rights for almost 60 years, if you went 
after Pablo Escobar or bin Laden more recently, why these 
people are still there in power. It does not matter how you can 
help me but how you can help 12 million people while they are 
trying to escape.
    Senator Menendez. Yes. You said--in the interpretation you 
said why are they not before a tribunal, which is an 
interesting view. Let me ask you this. Do you believe that the 
United States should insist that before there is any further 
deepening of this relationship that there be a call for free 
and independent elections?
    Mr. Machado. No doubt about it.
    Senator Menendez. Do you believe that we should say to the 
Castro Regime that before there can be any deepening 
relationship all political prisoners must be released?
    Mr. Machado. For sure. For sure.
    Senator Menendez. I could go on but we have other important 
witnesses. But I really appreciate you giving a presence, a 
young man who has spent a good part of his young life in 
prison, beaten simply because he was seeking to do those things 
that we in America take for granted. It is just amazing to me. 
And I hear nothing about that in terms of our State Department 
and our engagement. So I hope things will change.
    Dr. Eldosari, let me ask you, how is it can we best--you 
know, we often hear, you know, in response as we talk about 
human rights and democracy, whether it be in Saudi Arabia or 
other parts in the Arab world about--well, you do not 
understand the culture, you do not understand history. I 
respect culture and history but I cannot imagine that anything 
can be legitimized to put women in the plight in which they are 
in. How would you have us approach the issues of human rights 
and democracy and the role of women particularly and their 
rightful role as a human being in terms of the fulfillment of 
their rights? What do you think would be the most constructive 
way?
    Dr. Eldosari. One of the main important things is to 
recognize that there are voices within those regimes, within 
Saudi Arabia and other places, which actually require those 
demands, which actually fight for those demands. So it is not 
foreign. It is not against the culture. It is not against their 
beliefs. So the justification presented by those regimes, as 
this is culturally irrelevant or culturally inappropriate is 
not correct.
    The other thing is that there is a huge diversity in the 
Islamic world, in the Muslim world, in the Arabic world in 
which places where women--like, for instance, in the United 
Arab Emirates, women have been now part of the armed forces and 
the air forces and the commercial planes. So there are 
precedences where other Muslim countries, where other Arab 
countries have allowed women and men very much have an equal 
opportunity without relevance to cultural appropriation or not.
    So I think that should be brought into the discussion and 
end all of the movements that are happening, the organic 
movements and the grassroots movements within Saudi Arabia. 
There are great diversity in the number of people so we have 
women and men on the campaigns that I have participated in 
whether it is for a municipal election or for driving or for 
allowing--for removing the guardianship system or for the 
defense of the prisoners of conscience.
    We have religious scholars, really intellectual scholars 
who have argued for those things from the perspective of 
Islamic schools of thoughts. So I think there is room and 
leverage to pressure, especially now, that these things are 
appropriate since there are voices that demand those things 
within those countries. And by supporting those voices and 
those demands, many of those voices are based on Islamic 
justifications as well. We can elevate the role of--not only of 
human rights but the role of Islamic diversity that is so much 
hijacked by the states.
    Senator Menendez. Mr. Kasparov, at one time I thought I 
could be a great chess master, so--and I do enjoy playing the 
game and I think it is extraordinary. And I appreciate the work 
that you do and your foundation to use it as a vehicle to 
create critical skills for children in schools. So I appreciate 
that.
    But I want to ask you about--as much as I would be engaged 
in asking you about some of the great opening gambits, I want 
to ask you about Russia in the context of, you know, very 
often, in a different context than I asked the doctor, some 
argue that Russia is different, that history and the people 
themselves are conditioned to authoritarian rule, that Putin, 
these people claim, provides firm leadership, coupled with a 
vision of greatness, of Russian greatness that appeals to 
ordinary citizens and that the path to greatness requires 
sacrifices and the return to the greater Russia.
    How does one frame--and you were in Russia and 
unfortunately, you--because of what was going on and your 
activism, you had to come to the United States. How does one 
frame the narratives so that Russia's greatness includes a 
respect for human rights?
    Mr. Kasparov. Thank you very much for this question because 
it comes back and forth. This is one of the arguments I hear in 
many talk shows that, you know, certain countries, they just 
simply do not fit democracy. And Russia, of course, you know, 
is one of the samples. So the country is doomed to live under 
authoritarian or totalitarian regimes, which is--you know, as 
we look at history, as Russia had very short periods of 
democratic rule, but at the same time we can look around the 
world and we will find places where, you know, divided nations 
demonstrated that democracy performed much, much better than 
any other form of governance.
    Let us look at Korean peninsula. Is it is the same nation, 
divided on the north 38th parallel and one side we have a 
concentration camp, a gulag with 20 million people that is 
trying to sell, you know, it is the nuclear blackmail to feed 
its own people and to prevent, you know, massive famine and 
potential revolt. On the other side we have 40 million of the--
living in democracy and most vibrant economies in the world. We 
can talk about two Germanys, divided Germanys, also Taiwan and 
China.
    And even now going back to Russia, let us not forget Russia 
and Ukraine, never close, maybe it is not as close as two 
Koreans, but still, when you look at Eastern Ukraine, you could 
see that many people who leave there, they are all ethnic 
Russians. They grew up in the same country called Soviet Union. 
Even after 1991 there was no border so they could go from--
there is a hike up the coast. And there is a fact that is being 
committed by many of Putin's apologists that most of the 
fighters in the Ukrainian army today, they are ethnic Russians 
because they are fighting for their right to choose and to live 
in a free country because they know exactly what to expect in 
Putin's Russia.
    And, you know, it is--in my view the fighting between 
Russia and Ukraine could be viewed as the kind of geopolitical 
showdown, historical one, of the Kyiv's Russia, which was, you 
know, part of the European culture and the Golden Horde. So the 
Asian succession unfortunately dominated Russia for centuries.
    And one of the things, you know, followed the comments in 
the first panel is that Ukrainian, like Russia, in 1994 
experienced a peaceful transition of power. So the current--the 
President then, Leonid Kuchma, lost elections and, you know, 
peacefully he was replaced by his successor Leonid Kuchma. So 
with all credit given to Boris Yeltsin, he failed the ultimate 
test of peaceful transition of power. Instead of following, you 
know, proper electoral procedures, he picked up a successor. 
Some would say, you know, it could be Boris Nemtsov but Yeltsin 
made the wrong choice, and we are now seeing the consequences.
    So I do not believe that people in Russia are just doomed 
to live under the shadows of dictatorship, and many of us 
fought. Some of them, you know, were even killed. Many of them 
are in prison and even more are like myself. I live in exile. 
But the future of Russia is--belongs to the famine of the 
civilized democratic nations, and we can look at the current 
economic situation in the country. It is one of the richest 
countries in the world that is living in terrible conditions. 
We can see the steady deterioration of living standards. The 
economy is in free-fall, and that is why Putin, as every 
dictator, he is now--he has replaced domestic news by his 
aggressive foreign policy. If you follow Russian news and 
Russian talk shows, they do not talk about Russia. They talk 
about Ukraine, Syria, Israel, United States, blaming the world 
for all the hardship.
    Senator Menendez. Thank you. Thank you, Mr. Chairman.
    Senator Rubio. Mr. Kasparov, if I could lead off from that 
as well, it is--and if you disagree with any of the statements 
I am about to make as it leads into my questioning, you will 
tell me. Number one, as I--Vladimir Putin at this point has 
amassed more power in his hands than any leader in Moscow since 
Stalin in the '50s.
    Number two, there was--less than 10 years ago were--there 
were still--there was still political resistance that we could 
see expressed, whether it was through rock bands, political 
parties, demonstrations. That has steadily eroded, and it is a 
result of his willingness to exile, murder, and jail political 
opponents. And so you have no doubts that Vladimir Putin has 
ordered the murder and the jailing of political opponents.
    I also do not believe you have any doubts that he has 
directed the targeting and the killing of innocent civilian 
women, children in Aleppo and in other parts of Syria.
    I ask all that and lay that context out because we are--we 
have now had two administrations who believed that somehow this 
is someone we could work with and create some sort of a 
strategic geopolitical partnership, and the new administration 
has also expressed a willingness to potentially pursue this 
sort of geopolitical partnership with Vladimir Putin, despite 
all these things we know about him. And I am interested from 
your perspective, what would the impact be on our credibility, 
on America's standing in the world, and in, quite frankly, our 
national security but in particular I want you to opine on our 
credibility and our standing in the world as a nation who 
promotes democracy and liberty and the rights of all people. 
What would it do to our standing if, despite all of these 
things that we now know, we somehow enter in a geopolitical 
deal with Moscow in which we are willing to overlook all these 
things and the sovereignty of nations like Ukraine in exchange 
for their supposed cooperation in Syria? What would the impact 
be on America's standing in the world if we go into a deal with 
a criminal like this?
    Mr. Kasparov. Thank you, Mr. Chairman. I agree with 
everything you said about Vladimir Putin and his regime. I 
think it is important to emphasize that the United States and 
Putin's Russia--let me emphasize Putin's Russia--have no common 
values, no common ground, and no common interest. It is a false 
narrative that unfortunately is being pushed by some people in 
this country and in Europe that Vladimir Putin could be an ally 
in a war against terrorism. Terrorism has been--I would not say 
invented but nursed by KGB decades ago, and now we could see 
that in Syria ISIS has been used by Bashar Al-Assad's 
butcherous regime as an excuse for the atrocities that they 
committed against their own people.
    Again, it is a long story to find out whether, you know, 
KGB infiltrators had influenced within ISIS. I believe so. But 
what is most important that we could see that Assad's forces 
never fought ISIS and Putin always looked, you know, for ISIS 
as a good reason for him, an excuse to enter Syria.
    So the problem is, you know, that if you make one 
concession to Putin's regime, they will look for more 
concessions. They do not look at comprises as a search for 
common ground. It is a sign of weakness, and they will push on 
forward.
    You mentioned two administrations, Bush 43 administration 
and Barack Obama administration. I could also mention that one 
of the earliest mistakes was made even by Clinton 
administration while in 1995. Bill Clinton was empowered by the 
bipartisan resolution of the U.S. Congress to demand Boris 
Yeltsin to stop the first transaction of Russian nuclear 
weapons to Iran, and he could threaten and actually could pull 
out financial aid, which was crucial. Unfortunately, he decided 
against doing it.
    So--but if Clinton administration or Bush administration 
could be somehow forgiven because they looked at Russia as a 
country that was making, you know, first steps towards 
democracy, the last 8 or especially the last 4 years, you know, 
I think it is the--this shortsighted policy cannot be excused 
because those were the years where Putin accumulated all the 
power and moved from any form of cooperation into the open 
confrontation.
    Ten years ago in Munich he delivered a speech which cannot 
be interpreted otherwise but he challenged the West in a Munich 
security conference. And by the way, he follows almost 
religiously to what he said there, challenging American power 
and making United States as a prime target for his domestic 
propaganda.
    If United States enters any kind of deal at the expense of 
its traditional democratic allies or the countries like Ukraine 
that are heroically fighting against Putin aggression, that 
will be a very deep wound in the reputation--global reputation 
of the United States because it will be seen as the clear case 
of hypocrisy, and it will undermine U.S. attempts to promote 
democracy worldwide. And it--by the way, it will not stop Putin 
from moving further because, again, for him it will be a sign 
of weakness and he will try to exercise even more power because 
his domestic propaganda is based exclusively on the 
confrontation with the United States and the free world.
    Senator Rubio. The--you are a long-time observer and 
perhaps know firsthand and have seen the tradecraft of the KGB 
and now the Putin government. As you see reports about their 
active measures in the United States elections beyond simply 
some just--you know, just say, well, this is all about trying 
to reach a particular outcome, in your opinion beyond just the 
outcome of the election of somebody winning, somebody losing, 
deeper than that, what is the reason why Vladimir Putin's 
government would seek to undertake active measures in which 
they weaponize leaked illegally accessed information for 
purpose--and then strategically placing that information in the 
press? What at the end of the day--were they trying to go 
beyond that--undermine the credibility of American democracy, 
sow chaos, instability? What is the thinking that goes behind 
that sort of action?
    Mr. Kasparov. Vladimir Putin is targeting democracy as an 
institution. Undermining democracy and of course United States 
is the most lucrative target for a KGB agent. He believes that 
he could destroy any hopes for democratizations in Russia or in 
other countries of un-free world. He has been doing the same 
things in Europe. He has been steadily attacking democratic 
institutions in the U.K., now in Holland, in France, and 
Germany, in Italy, elsewhere because for him it is a great 
opportunity to use, what an irony, technology invented in the 
free world, the freedom of speech to undermine the very 
institutions that are protecting our freedom. And he is not 
going to stop because for him it is a natural way of extending 
his powers since he wants chaos. Chaos helps him to promote his 
clandestine agenda, and chaos prevents unified front of 
European nations and the United States and Canada and other 
democratic nations in the world to stand against Putin's 
aggression.
    Senator Rubio. Dr. Eldosari, you said in--on October 10th 
to the BBC's Arabic Service that ``The problem with the Saudi 
legal system is that it deals with the lives of people in the 
21st century with the mentality of the 7th century.'' I was 
hoping you could elaborate further for those who might read the 
transcripts of this hearing or be watching at some point. What 
did you mean by the they are dealing ``with the lives of people 
in the 21st century with the mentality of the 7th century?''
    Dr. Eldosari. A very good example is considering any 
critics of the state, any critics of the policies as 
disobedient to the ruler. This idea of a ruler as the guardian, 
as the ultimate guardian is very much foreign idea, and it is 
an idea that has been--and aspired by early historical examples 
that does not have any relevance to the social contracts or to 
modern work. And if any act could be interpreted by any citizen 
as a disobedience to the King, that is a good ground to punish 
this person either by flogging or either by sentencing. There 
is no penal code in Saudi Arabia.
    There is no written codification of what does it mean to 
have a certain crime and what is the kind of punishment. As I 
have just mentioned, the ta'azir, which is the authority given 
to judges by certain Islamic schools of thoughts to decide on 
punishments according to their own whim is something that is 
threatening for the due process. Often, when Saudi Arabia is 
challenged by the international community and asking for a 
rationale or justification for the punishments enforced on 
activists, they bring forth the idea of the due process.
    We are having courts, we are having lawyers, we are having 
trials, but the whole philosophy of what is a criminal act is 
absent. So you could just go to jail like all the members of 
the Civil and Political Rights for demanding that should be--
that there should be a social contract with very--with much of 
checks and balances for the authority of the ruler. If you 
demand that in Saudi Arabia, you are sentenced for 11 years or 
15 years in prison and--followed by equal duration of travel 
ban.
    So this is what I have meant that this kind of mentality 
that does not really coincide with any definitions of human 
rights, this kind of mentality that treats any act of 
expression of opinion or expression of religious beliefs as an 
act of terror, as an act of insult against Islam to protect 
their power. Basically, the religious institutions and the 
legal institutions are there to protect the status quo rather 
than to implement justice, and this really is apparent from the 
wide variance of sentences that people experience from even the 
same judge.
    Senator Rubio. In our hearing for Secretary of State, then-
nominee, now-Secretary of State testified in response to my 
questions about Saudi Arabia that we needed to account for 
cultural differences that existed, that perhaps is the reason 
why this is still in place and it would take a little longer 
than it would in other places. Is--in your opinion, is the 
condition of the general population, in particular, women and 
how they are treated under Saudi law and by Saudi leadership, 
is that a result of some sort of a cultural affinity or is that 
basically a system of political control disguised as a cultural 
principle?
    Dr. Eldosari. Yes.
    So the total obedience that is demanded from citizen to the 
rule of the King, basically the absolute authority to the King 
that is unchecked by any balances or measures, this is the same 
authority that is granted to men over women in a family. And 
the massive support that we amassed in the male guardianship 
campaign, it is a social campaign, and the massive, you know, 
support from religious scholars as well who came out and said 
that these practices are not found in Islam under--or 
precedence in Islam that actually contracted these ideas. And 
these ideas are fairly new.
    So in the lives of people in the '60s in Saudi Arabia, 
there was no ban on women to travel on their own. It was an 
invented state regulation because of a certain incident that 
happened. So all of those restrictions that were imposed on 
women to refrain women from participating in the public 
meaningfully or to acquire, you know, equal opportunities in 
the workforce or in education or to decide on their own lives 
or marriages are very much an invented, you know, 
interpretation of what should be a different scenario.
    If really the diversity of Islamic schools of thoughts and 
the diversity of people have been expressed, then this is 
something that we have witnessed from a number of people of all 
backgrounds that have joined the campaign to express online and 
in writings.
    Senator Rubio. My last question, Doctor, is because of your 
activism, because of your testimony here today, because of the 
words you have expressed and the work that you have done, what 
do they say about you in Saudi Arabia?
    Dr. Eldosari. Well, I think one of the things that we learn 
to do--I am sure there are mixed feeling----
    Senator Rubio. By the government, I apologize.
    Dr. Eldosari. Well, I do see my name coming in the formal 
print media and in online defamation campaigns all the time and 
the names of other people who are doing the same. And similar 
to my distinguished colleague here, I think that we learn to 
work without thinking of things beyond our control. We tend to 
uphold our values and our principles and try to do the best of 
the resources that we have, ideas like what the government 
would think of is not of an importance I think to people in 
Saudi Arabia more than to secure the public interest and to 
make sure that their rights are safeguarded and guaranteed.
    Senator Rubio. Mr. Maldonado, there was a school of thought 
in American politics that the best way to advance the cause of 
human rights and freedom in Cuba is to allow for Cuba to be 
flooded with American business and travelers but in particular 
American business, that if somehow there were more economic 
interaction between American corporations and the Cuban 
Government, which controls the entire economy, that that would 
somehow lead automatically at some point to political freedoms 
and some form of representative government. Do you share that 
view, and has that been your experience over the last 2 years 
or 2 1/2 years since the change in policy? We now see a large 
number of chambers of commerce, business interests traveling to 
Cuba and interacting with the Cuban Government. Has that led to 
any political opening for people such as yourself or others who 
disagree with the government? And do you believe that somehow 
economic interaction with the United States in and of itself 
will lead to democracy without additional pressure? The 
microphone.
    Mr. Machado. Oh, sorry. This will have some impact if the 
United States could demand that they could pay their own 
workers in their U.S. companies. Otherwise, it would be more of 
the same as all foreign companies in Cuba have experienced 
during the long years in which the state is like a middle man 
between the company and the Cuban workers. So the Cuban 
Government is paying their workers, $20, $25, $30 a month for 
doctors and workers in Cuba, which is earned by an American 
worker in a couple of hours.
    Senator Rubio. But so--and the--the fundamental question 
that people continue to pose is that we should somehow separate 
the political opening from the economic debate. Is it your view 
that we need to be doing more to empower civil society, create 
obviously attention to the cause such as people such as 
yourself, that in essence, if we could focus on the political 
and the freedom, that that would then create a free Cuban 
people who could decide an economic model for themselves and 
for their country?
    Mr. Machado. Well, that is rather difficult because, you 
know, if it is only political, they could remain as owners of 
the economy and continue as any other transition of power to 
themselves.
    Senator Rubio. It is fair to say that the Cuban Government 
across its holding companies, controlled by sometimes military 
figures in the government, basically control the vast and 
overwhelming majority of the Cuban economy?
    Mr. Machado. Yes. Well, American citizens know the cost of 
opening some sort of business in Cuba. Mr. Alan Gross is an 
example. There should be requirements to the Cuban Government 
that Americans investing in Cuba should be respected. Their 
policies should be respected to do their business, to conduct 
their business with all their rights. Maybe that would be a way 
to reach--another way to reach freedom.
    Senator Rubio. The resistance in Cuba, the people like 
yourself who are not just demonstrating against the oppression 
and the tyranny but also who aspire for a freer and more 
democratic Cuba where people are represented, when this opening 
happened with Cuba that included all the celebrations that we 
saw about it, yet we saw such little mention of the plight of 
those such as yourself and others, what impact did that have on 
the psychology, the morale of those such as yourself who are 
still suffering?
    Mr. Machado. Businesses continue to open but there is still 
that middle man that will distribute the profits and will pay 
the Cuban workers very, very small salaries and keep the profit 
for themselves.
    Senator Rubio. So the bottom line is what American business 
interests need to know is that an economic opening to Cuba is 
not necessarily an economic opening with the Cuban people. It 
is an economic opening to do business with the Cuban 
Government, who then uses it as an additional form of control 
over the Cuban people?
    Mr. Machado. Exactly. Exactly.
    Senator Rubio. My last question is, since the opening of 
the U.S. Embassy and our designation of the once consulate to 
embassy, have the personnel there, including the charge 
d'affaires and others in charge of that facility been 
supportive of you, reached out to you, interacted with you?
    Mr. Machado. Sometimes we are called by phone. I was 
invited to the Fourth of July celebration, and I was the only 
listed artist on venue.
    Senator Rubio. And in--have you ever in your--over the last 
2 or 3 years, as several of our colleagues have visited Cuba--
Congressmen, Senators--have you ever had any Member of Congress 
visit you?
    Mr. Machado. Not to me but certainly when President Obama 
visited Cuba, he met several--all the dissidents, which was 
very important--a very important action by him.
    Senator Rubio. After the President visited Cuba and left, 
what was the government--the Castro government's reaction to 
the people who met with him? Was there a--did you notice a 
change in their behavior after he left? Did they become more 
repressive after the fact?
    Mr. Machado. No. Repression has been increased.
    Senator Rubio. My last question. Since December of 2014 
when this opening with Cuba was announced, has repression in 
Cuba increased or decreased?
    The Interpreter. Say that again, please.
    Senator Rubio. Since December of 2014 when the opening was 
announced to Cuba from the U.S. Government, has repression in 
Cuba increased or decreased?
    Mr. Machado. It has increased because there is also more 
activism.
    Senator Menendez. Mr. Chairman, very briefly, one quick 
question and then a comment.
    Do you think that after the openings of relationships the 
Castro regime thinks that they must change in terms of human 
rights and democracy or have they already acquired what they 
want?
    Mr. Machado. Well, believing that would lead you to think 
that by releasing ``El Chapo'' Guzman, he could change his 
attitude.
    [Laughter.]
    Mr. Machado. Do you think that would be effective? A 
murderer is a murderer.
    Senator Menendez. By the way, a murderer is a murderer. I 
get it. To your line of questioning, Mr. Chairman, of course in 
Cuba if you want to do business, you have to do it with Raul's 
son or his son-in-law, both high-ranking officials of the Cuban 
military, both have run the two major entities, one on tourism 
and its related industry, the other one in agriculture, so not 
very capable of doing business with the Cuban people and 
unlocking the freedom of the Cuban people to make money, decide 
how--get paid directly by U.S. companies, be able to spend that 
money in a way they want, including hiring some of their 
relatives or friends and therefore create an economic movement 
that creates freedom at the end of the day. So I appreciate 
your line of questioning.
    The last thing I want to say, I do not know when you are 
going back to Cuba, but when you do, I want you to make sure 
your contacts here in the United States, if you are arrested 
again, I want you--I think the chairman and I would both want 
to know immediately through your contacts because the--if there 
is to be an embassy of the United States in Cuba, or for that 
fact any place in the world, then it seems to me that in fact 
there should be a vigorous pursuit of giving assistance to 
human rights activists, political dissidents, independent 
journalists who are jailed simply because they peacefully try 
to express their position.
    So I want to do--I hope what we have done in other parts of 
the world when we did with Walesa and Vaclav Havel and others 
is create this light upon the individual that hopefully creates 
some degree of security for them. The regime does not seem to 
care much about that, but at some point it has to give, and I 
just want to--I appreciate you taking the risk to come here and 
testify because your oppressors get to sit in the back row, but 
in Cuba you cannot do that. And so to the extent that we can be 
helpful to protect you, I want to make sure that you know that 
you are not alone.
    Senator Rubio. My final--and I have to ask you a final 
question but there is one more. My colleagues, some will 
wonder, well, if it is such a dictatorship, if it so 
tyrannical, then why is Mr. Maldonado allowed to travel, come 
here to the United States and say the things that he is saying. 
In your opinion, why have they allowed you to be here today and 
to testify?
    Mr. Machado. Thanks to continuous movement of protest, the 
world knows that there are dissidents in Cuba. They removed the 
permit to travel. In the past, only they could travel. Now, all 
can travel. I have faced difficulties to leave the country 
sometimes and by that action being denounced, that prohibition 
was removed. Maybe they hope that I will not be back.
    Senator Rubio. Well, we appreciate all of you for being 
here. The record is going to remain open for 48 hours, and I 
thank you all again for your time and for your brave testimony. 
And with that, this meeting is adjourned.
    [Whereupon, at 5:09 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                Responses of Carl Gershman to Questions 
                     Submitted by Senator Tim Kaine

    Question. There are various indices, including the Economist 
Intelligence Unit, that measure the state of democracy in countries 
around the world. Which of these do you find the most credible and 
accurate, and why?

    Answer. The various indices to which you refer exist precisely 
because there is no consensus on how to conceptualize and measure 
democracy. Consequently, different methodologies are employed by the 
principal indices, which include the EIU's Democracy Index, Freedom 
House, Bertelsmann Transformation Index (BTI), Democracy Barometer, 
Freedom House, Polity IV, Sustainable Governance Indicators (SGI), 
Legatum, V-Dem, Worldwide Governance Indicators (WGI), and the UNDP's 
Electoral Democracy Index.
    All such indices share the common problems of establishing a 
precise and credible definition of democracy; identifying appropriate 
indicators; aggregating quantitative or numerical data; and subjecting 
the data to evaluation and judgments (the Freedom House, Polity IV and 
EIU surveys all rely on expert's qualitative interpretation of 
quantitative data).
    These issues have been the subject of an intense debate amongst 
academics and practitioners. The attached articles from the NED's 
Journal of Democracy address some of the key issues.
    Since its inception, the NED has been committed to a broad or 
holistic interpretation of democracy rather than a 'minimalist' 
definition that privileges elections, hence NED's mission to support 
``the growth of a wide range of democratic institutions abroad, 
including political parties, trade unions, free markets and business 
organizations, as well as the many elements of a vibrant civil society 
that ensure human rights, an independent media, and the rule of law.''
    Consequently, and without discounting the value and insights of 
other democracy indices, Freedom House's Freedom in the World--which 
adopts a similarly holistic approach (including socio-economic rights 
within political and civil liberties, for instance) - remains the 
standard setter for gauging the condition and trajectory of democratic 
governance and political and civil rights. Through a long-established 
series of complementary annual reports, Freedom House's analytical team 
has developed a significant specialization in standardized, 
multicountry surveys.
    By contrast, most of the other indices offer a partial or 
specialized perspective. The Bertelsmann Transformation Index (BTI), 
for instance, popular in Europe, assesses some dimensions of political 
rights and civil liberties in over I 00 countries, but its conceptual 
approach highlights ``transformational management'' in the context of 
``good governance.'' The relatively new V-Dem (``Varieties of 
Democracy''--see attached Journal of Democracy article), produced by an 
international academic consortium, by contrast, seeks ``to distinguish 
between seven high level principles of democracy'' (Electoral, Liberal, 
Participatory, Majoritarian, Consensual, Deliberative, and 
Egalitarian).
    While the various indices offer distinctive insights, the principal 
virtue of Freedom in the World is its accessibility and user-friendly 
approach--one reason why the Freedom in the World data and supporting 
narrative reports have become a crucial point of reference for 
journalists and analysts. That the analysis is provided in a non-
academic, jargon-free, clear-minded way is also useful. Moreover, at a 
time when undemocratic regimes have turned the manipulation of 
information into an art form and facts are increasingly subject to 
distortion, the grounded, rigorous numerical scores, succinct 
narratives, and consistent reporting of Freedom in the World is 
especially valuable.

    Question. Further, which factors do you believe are the most 
important to account for in determining a country's level of democracy 
over time?

    Answer. Measuring democracy is important to the Endowment and other 
democracy assistance practitioners for several reasons, including:

   gauging the state or quality of democracy in a particular country, 
        region or sphere in order to identify programmatic priorities;

   identifying 'early warning signals' of democratic deterioration or 
        relapse;

   program evaluation;

   monitoring compliance with standards (e.g., Millennium Challenge 
        Account).

    The NED's commitment to inclusive democracy (see above) is 
consistent with the celebrated political scientist Robert Dahl's widely 
accepted two-part definition of democracy as requiring at least 
conleslation or compeliiion and participation or inclusion (the right 
to vote, freedom of association, etc.). Consequently, the primary 
factors of a healthy democracy would include free and fair elections, 
the right to form political parties, competitiveness and prospects for 
political turnover or alternation. These institutional prerequisites of 
democracy, however, require a supportive substructure of secondary 
factors, such as a robust civil society, free media, independent 
judiciary, and a constitution with explicit guarantees of fundamental 
rights.
    But the emergence of 'competitive authoritarian' or hybrid regimes, 
which hold elections (albeit flawed) and allow a degree of political 
space for opposition voices, has highlighted the importance of 
measuring democracy between elections and beyond formal institutions 
and procedures. While the minimalist or electoral conception of 
democracy has prioritized such factors as the integrity of the 
electoral process and prospects for political alternation, hitherto 
secondary factors deemed important for ensuring or supporting electoral 
contestation are becoming primary indicators of the health or quality 
of democracy, including:

   rule of law and judicial independence;

   transparency and horizontal accountability of state institutions;

   media freedom and pluralism;

   human rights and civil liberties (including minority rights), and

   the autonomy and vibrancy of civil society.

    There may be an academic case for prioritizing some indicators of 
democracy over others, but from a practitioner perspective, the 
assessment of which factors or indicators are most important in 
determining a country's level of democracy over time depends to a large 
extent on the specific country context and necessarily remains fluid, 
responsive to trends and events. For example, few would have predicted 
the corrosion of democratic institutions that is occurring in 
'consolidated' democracies.
    Accordingly, there may be a case for prioritizing factors such as 
voice/accountability and issues of government effectiveness, especially 
since democracy's perceived institutional failures threaten to 
undermine its appeal and legitimacy.

    [The material referred to above can be accessed in the documents 
referenced in footnotes below.] \1\ \2\
---------------------------------------------------------------------------
    \1\ ``Anxious Dictators, Wavering Democrats,'' Arch Puddington, 
Tyler Roylance, Journal of Democracy, Volume 27, Number 2, April 2016, 
pp. 86-100. https://muse.jhu.edu/article/614520.
    \2\ ``V-Dem: A New Way to Measure Democracy,'' Staffan I. Lindberg, 
Michael Coppedge, John Gerring, and Jan Teorell, Journal of Democracy, 
Volume 25, Number 3, July 2014, pp. 159-169. https://muse.jhu.edu/
article/549506.
---------------------------------------------------------------------------
                               __________

                Response of Hon. Mark Green to Question 
                     Submitted by Senator Tim Kaine

                             democracy data
    Question. There are various indices, including the Economist 
Intelligence Unit, that measure the state of democracy in countries 
around the world. Which of these do you find the most credible and 
accurate, and why? Further, which factors do you believe are the most 
important to account for in determining a country's level of democracy 
over time?

    Answer. Indices that measure the state of democracy can be useful 
for identifying trends in democratic development across countries and 
over time. However, it is important to remember that there is no ``one-
size-fits-all'' model of democracy. All democracies are works in 
progress: they are complex, dynamic, and vary depending on culture and 
context. For this reason, no matter how comprehensive and well-
conceived an index is, it's important to critically assess the measures 
an index score is based on; to compare those measures with data from 
other sources (including other indices); and to place improvements or 
declines in scores in context through in-depth qualitative analysis. 
That being said, the approach taken by the Millennium Challenge 
Corporation (MCC) indices is useful. Using data drawn from Freedom 
House, the MCC determines whether a country meets a ``hard hurdle'' of 
basic political and/or civil rights, and incorporates additional data 
from several different sources to assess government effectiveness, 
transparency and responsiveness. MCC now has a decade of experience 
applying its democracy measurement approach in a wide range of 
settings, and their index has become increasingly recognized and 
accepted, especially in lower-income and lower middle-income countries.
                               __________

                Response of Kenneth Wollack to Question 
                     Submitted by Senator Tim Kaine

                             democracy data
    Question. There are various indices, including the Economist 
Intelligence Unit, that measure the state of democracy in countries 
around the world. Which of these do you find the most credible and 
accurate, and why? Further, which factors do you believe are the most 
important to account for in determining a country's level of democracy 
over time?

    Answer. There are a number of credible indices on the state of 
democracy globally and in particular countries. The Economist 
Intelligence Unit's Democracy Index, Freedom House's Freedom in the 
World Reports, and Bertelsmann's Transformations Index are among them. 
They each are very helpful, though each also has constraints largely 
defined by the combination of necessarily limited factors they consider 
and emphases they embrace. It is best to look at a combination of the 
indices, rather than to focus on just one, and to compare them over a 
period of years, rather than to accept a 1-year snapshot as definitive. 
It is also best to look at them together with other indices that are 
relevant to democratization, like Transparency International's 
Corruption Perception Index, Reporters without Borders' World Press 
Freedom Index, and the Fraser Institute's Economic Freedom Ranking.
    Moreover, an index by nature assigns weight to a particular set of 
indicators, usually grouped by subject areas, and it then assigns an 
overall score to each country it considers. There are also important 
nuances, which highlight the need to consider reports on particular 
countries and subjects across a number of countries. The U. S. 
Department of State's Country Reports on Human Rights Practices and 
reports of credible nongovernmental and intergovernmental organizations 
on elections, gender and politics, rule of law development, human 
rights and other issues are indispensable for understanding the state 
of democracy and trends of particular countries and globally. The 
UNDP's Human Development Reports and their related indices are valuable 
resources when considering global trends.
    There are key principles that underpin democracy, each comprise a 
number of factors. The principles guide analysis the democratic health 
of a country's governance, political processes, elections, and broader 
civic engagements. The three main principles are: inclusiveness; 
transparency, and accountability.
    Inclusiveness is at the core of the social contract between and 
among citizens, civic organizations including political parties, and 
government institutions and processes including elections. The 
democratic norms of universal and equal suffrage and of equality before 
the law and equal protection of the law embody the principle of 
inclusiveness. It is essential to realization of civil liberties and 
economic opportunity.
    Transparency is essential for democratic governance. The authority 
of democratic government derives from the will of the people expressed 
in genuine elections. Democratic governance depends on citizens 
exercising their right to participate in government and public affairs 
beyond elections. An informed vote and informed participation is 
impossible without sufficient and accurate information about 
governmental processes, policies and performance. This explains why 
democratic government is open government, and why citizens have a right 
to know about government information with only certain narrow 
exceptions that must provide for their oversight.
    Accountability is synonymous with democratic governance. Government 
in all of its facets must be accountable to the people, and every 
person must be accountable before the law in a democracy. 
Accountability encompasses various mechanisms and processes from the 
functioning of checks and balances among government branches, to the 
means for citizens to question policy formulation and implementation or 
lodge complaints, to avenues for examining the functioning of rule of 
law institutions, to the conduct of credible elections that allow 
citizens to hold elected officials to account. The principle of 
accountability is essential to combatting corruption and impunity and 
is vital to democracy delivering improved quality of life.
    The number of specific factors to examine vary depending for 
example on whether press freedoms, women's participation, economic 
justice, or electoral integrity are the subject of democratic inquiry. 
In each case the analysis should be guided by evaluating how basic 
democratic principles are being respected.

                                  [all]
</pre></body></html>
